<html>
<title> - STRENGTHENING INTERNATIONAL COOPERATION ON AVIATION SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
      STRENGTHENING INTERNATIONAL COOPERATION ON AVIATION SECURITY

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON 
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 7, 2011

                               __________

                           Serial No. 112-17

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-227                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois, Vice Chair      Cedric L. Richmond, Louisiana
Mo Brooks, Alabama                   Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Thomas McDaniels, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     2

                               WITNESSES
                                Panel I

Mr. John W. Halinski, Assistant Administrator for Global 
  Strategies, Transportation Security Administration, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                                Panel II

Mr. Filip Cornelis, Head of Unit for Aviation Security, 
  Directorate General for Mobility and Transport, European 
  Commission:
  Oral Statement.................................................    24
  Prepared Statement.............................................    27
Mr. Rafi Ron, President, New Age Security Solutions:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Mr. Jim Marriott, Chief, Aviation Security Branch, International 
  Civil Aviation Organization:
  Oral Statement.................................................    35
  Prepared Statement.............................................    36


      STRENGTHENING INTERNATIONAL COOPERATION ON AVIATION SECURITY

                              ----------                              


                        Thursday, April 7, 2011

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Walberg, Cravaack, Walsh, 
Jackson Lee, and Davis.
    Mr. Rogers. The Committee on Homeland Security Subcommittee 
on Transportation Security will come to order.
    The subcommittee is meeting today to hear testimony on the 
need to strengthen international cooperation on aviation 
security and the progress that has been made with our foreign 
partners. I want to thank the witnesses for being here today 
and for your time in preparing for this.
    The evolving terrorist threat to aviation security requires 
us to re-evaluate how we approach international aviation 
security in an effort to develop common security standards with 
our foreign partners in the most critical areas. TSA's Office 
of Global Strategies is responsible for engaging those foreign 
partners, assessing threats and vulnerabilities originating 
overseas, and finding ways to mitigate those threats as best we 
can. From intelligence and information sharing to advanced 
passenger and cargo screening methods, we must continue to work 
closely with our international partners to strengthen aviation 
security.
    One critical gap that I intend to pursue through 
legislation is TSA's lack of authority to donate screening 
equipment to countries that cannot afford to purchase their 
own. Weak security standards in one link in the global aviation 
chain could have catastrophic consequences.
    TSA deserves the authority to assist countries where they 
have identified vulnerabilities or where there simply is need. 
For example, recent reports have indicated that TSA has surplus 
baggage screening equipment in a storage unit that, in some 
instances, has been replaced by more advanced technology. That 
type of equipment could prove very beneficial in a foreign 
country seeking to improve its screening capabilities. It is in 
our interest to increase aviation security, passenger, and 
baggage standards to an acceptable standard, particularly in 
countries where flights depart for the United States.
    I look forward to dialogue with our witnesses on this 
issue; and I also look forward to a discussion on TSA's foreign 
assessment program, the partnership between the United States 
and the European Union on aviation security, the best practices 
and lessons learned from previous terrorist plots and attacks, 
as well as the role of the International Civil Aviation 
Organization in the enhancement of aviation security standards 
and coordination.
    The Chairman now recognizes the Ranking Member of the 
subcommittee, my friend, the gentlelady from Texas, Ms. Jackson 
Lee, for any statement she may have.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
good morning. Good morning to Members; and thank you, Mr. 
Chairman, for your indulgence.
    The Democrats are in a leadership meeting on the pending 
issues of the day; and I know that, as I have just left that 
meeting, that Members of the committee will be joining us 
shortly.
    Again, I appreciate you calling this hearing today on the 
important, relevant, and timely issue of strengthening 
international cooperation on aviation security.
    It is no secret that terrorists try to attack our Nation 
through the aviation system, originating from locations abroad. 
I repeat my frequent refrain on the new attitude and approach 
to terrorist is that it is franchised. Individual actors can 
create enormous havoc and kill many people, innocent 
individuals. So we must be forever vigilant, and our 
international operations are crucial to this vigilance.
    Last October, international cooperation and public-private 
interaction resulted in a successful interception of explosive 
devices shipped on passenger and all cargo aircraft from Yemen. 
The results that would have come out of inactivity or failure 
would have been catastrophic.
    The year before, a terrorist attempted to destroy Northwest 
flight 253 over the skies of Detroit on December 25, 2009. That 
flight originated in Amsterdam. That traveler, however, came 
from Ghana to Nigeria and then on into Europe. It is 
interesting that the individual actor chose a day when most 
Americans were turning toward both their faith and their 
families.
    So the question I will present to the administration, to 
all of our witnesses today, is: How do we secure our skies, 
secure our air borders, if you will, while also allowing for 
the flow of law-abiding passengers, our own residents, 
tourists, and students traveling to this great land of ours? 
How will we protect families who are simply seeking to reunite 
their families overseas? How do we balance securing a shipment 
of cargo and commodities against sabotage with the need to not 
interrupt the essential flow of commerce through the quickest 
form of transportation, that being aviation?
    We grapple with these questions domestically, but these 
questions and issues are magnified when addressing securing the 
global aviation system. Aviation is made of hubs and spokes, 
commercial and general aviation aircraft, passenger and cargo 
traffic, domestic and international routes. All of these 
complexities must be considered in the implementation of 
effective and efficient security programs, processes, and 
procedures.
    Secretary Napolitano and Administrator Pistole have put the 
important issue of raising and harmonizing security standards 
before the governments of the world. Agreements have been 
signed, accords have been reached, but what we are here to 
examine today is how the United States can leverage these 
developments along with the security programs required by the 
Transportation Security Administration to secure aviation from 
terrorist attack.
    I would like to welcome our witnesses today. We truly have 
an international panel, and I look forward to your perspective 
and insight into what is happening on the international level 
in terms of increasing security at airports and throughout the 
global supply chain.
    Now more than ever we must work with our partners abroad in 
government, at airports, with air carriers, and throughout the 
industry to seek solutions to the complex issues associated 
with aviation and global supply chain security.
    Mr. Chairman, I am interested in your idea of sharing our 
unused equipment. I believe it is important that it is a 
bipartisan approach, and I would be delighted to review, as you 
move forward, on this question.
    I think there are a number of legislative initiatives that 
might also be helpful as we look to the opportunity of 
expanding our security chain through global aviation.
    With that, Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentlelady.
    Other Members are reminded that they have opening statement 
potential to put into the record.
    We are pleased to have several distinguished witnesses 
before us today on this important topic. Let me remind the 
witnesses that their entire written statements will be put in 
the record.
    Our first witness is Mr. John Halinski, who was named 
assistant administrator of the Office of Global Strategies at 
TSA in April 2010 after serving as the deputy assistant 
administrator since December 2008. He previously served 25 
years in the U.S. Marine Corps in a variety of positions in the 
intelligence and infantry communities, working extensively in 
special operations.
    The Chairman now recognizes Mr. Halinski for his testimony.

  STATEMENT OF JOHN W. HALINSKI, ASSISTANT ADMINISTRATOR FOR 
GLOBAL STRATEGIES, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Halinski. Good morning Chairman Rogers, Ranking Member 
Jackson Lee, and distinguished Members of the subcommittee. 
Thank you for the opportunity to testify today about the 
Transportation Security Administration's on-going efforts to 
improve international aviation security.
    TSA's mission is to secure our Nation's transportation 
system and to help keep the traveling public safe. As recent 
attempts by terrorists have shown, safeguarding America's 
transportation system requires an international approach. 
Within TSA, I lead the Office of Global Strategies, or OGS, 
which works proactively with international partners on overseas 
transportation operations that affect the United States.
    TSA's global mission is to develop and promote the 
implementation of enhanced transportation security processes 
worldwide, while ensuring compliance with international and TSA 
security standards. This mission focuses on three areas: 
Compliance, outreach and engagement, and capacity development. 
We use a risk-based approach that evaluates the factors of 
threat, vulnerability, and consequence.
    To fulfill the mission area of compliance, TSA 
transportation security specialists conduct security 
assessments of all international airports from which the U.S. 
air carriers operate, from which a foreign air carrier serves 
the United States, those that pose a high risk to international 
air travel, or others determined by the Secretary of Homeland 
Security. Through these assessments, TSA evaluates the security 
postures of the airports in accordance with security standards 
established by the International Civil Aviation Organization, 
or ICAO.
    OGS teams conduct annual inspections of U.S. and foreign 
air carriers to ensure they operate in compliance with required 
security measures. These inspections enable TSA to identify 
risks to the international air transport system, followed by 
mitigation through outreach and engagement and capacity 
development.
    Extensive global outreach and engagement is conducted at 
the global, regional, and bilateral levels to encourage 
international counterparts to recognize that the threat to 
aviation remains high. Globally, OGS works with ICAO to 
establish and enhance baseline international standards in place 
of aviation security. At the regional and bilateral level, TSA 
representatives are stationed in key locations worldwide to 
work with foreign governments and to support implementation of 
enhanced security matters.
    TSA also conducts outreach activities to engage the 
aviation industry, particularly air carriers and aviation 
stakeholders. Our international industry representatives work 
closely with industry to ensure that requirements for foreign 
air carriers are implemented and to alert airlines to new 
threats.
    TSA further mitigates risk by helping partner nations build 
sustainable aviation security practices through capacity 
development.
    In addition to a variety of specific aviation security 
courses, TSA's Aviation Security Sustainable International 
Standards Team, or ASSIST program, provides comprehensive 
technical assistance to countries with demonstrated difficulty 
in satisfying ICAO standards.
    As you can see, the breadth of OGS operations is 
significant. In the last 18 months, our inspectors have 
conducted 185 airport assessments, 1,149 foreign air carrier 
station assessments, and 290 cargo station assessments. We have 
also completed 154 visits to foreign repair stations in advance 
of the issuance of the final rule. Altogether, over the last 
year and a half, we have conducted outreach with over 150 
foreign governments.
    In the final mission area of capacity development, in 
fiscal year 2010, OGS provided 45 aviation security training 
sessions in 28 countries and is scheduled to provide 51 
sessions in 35 countries this fiscal year. Assistance and 
training has recently also been provided to other countries, 
including Liberia, St. Lucia, Georgia, and Yemen through our 
ASSIST program.
    Although we have accomplished a great deal, we recognize 
the need to be forward looking. As part of this effort we 
recently created a rapid response team to handle international 
incident management. Recently, we have also deployed to Haiti, 
Yemen, and to Japan in support of these types of operations.
    TSA will continue outreaching engagement to foster a common 
view of the international threat level. Outreach and engagement 
efforts in years ahead will include active support and 
engagement with ICAO and our bilateral partners.
    Before I conclude, I must say that the caliber of OGS 
workforce is key to our success. The dedicated men and women 
who support all of these initiatives face unique challenges 
every day. These challenges require a highly specialized skill 
set that balances technical expertise with diplomacy. It takes 
years to develop.
    Mr. Chairman, Ranking Member Jackson Lee, thank you again 
for the opportunity to testify. I look forward to answering 
your questions.
    [The statement of Mr. Halinski follows:]

                 Prepared Statement of John W. Halinski
                             April 7, 2011

    Good morning Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the on-going efforts of the 
Transportation Security Administration (TSA) to improve international 
aviation security.
    TSA's mission is to prevent terrorist attacks and reduce the 
vulnerability of the Nation's transportation systems to terrorism. In 
meeting this mission, TSA's goal at all times is to maximize 
transportation protection and security in response to the evolving 
terrorist threat while protecting passengers' privacy and facilitating 
the flow of legal commerce. Balancing these elements is a difficult and 
demanding challenge particularly in a vast and complex international 
air transport system that involves a network of thousands of operations 
linked across the globe. Within TSA, the Office of Global Strategies 
(OGS) works proactively with a variety of international and domestic 
partners on overseas transportation operations that affect the United 
States, including major transnational aviation-related organizations 
and regional bodies dealing with transportation security. TSA also 
participates in numerous bilateral cooperative efforts with various 
countries, and interagency efforts dealing with transportation 
security.

                         TSA'S GLOBAL STRATEGY

    TSA's global mission, executed by OGS, is to develop and promote 
the implementation of enhanced global transportation security processes 
and structures worldwide, while ensuring compliance with international 
and TSA security standards. This mission focuses on three areas: 
Compliance, outreach and engagement, and capacity development. Our 
mission is accomplished by using a risk-based approach that evaluates 
the factors of threat, vulnerability, and consequence when determining 
our efforts to enhance global aviation security across the three 
mission areas.
    To fulfill the mission area of compliance, TSA conducts security 
assessments of all international airports from which a United States 
air carrier operates, from which a foreign air carrier serves the 
United States, those that pose a high risk to international air travel, 
and others as determined by the Secretary of Homeland Security. These 
assessments are conducted by OGS International Transportation Security 
Specialists, who operate out of five Regional Operations Centers 
located in Frankfurt, Singapore, Los Angeles, Miami, and Dallas. 
Through these assessments, TSA evaluates the security posture of the 
airport in accordance with security standards established by the 
International Civil Aviation Organization (ICAO), the specialized 
agency of the United Nations that deals with commercial aviation. The 
frequency of each airport assessment is based on risk computations of 
current threat, documented vulnerabilities, and flight data at these 
airports.
    TSA OGS teams also conduct annual inspections of U.S. air carriers 
to ensure that they operate in compliance with TSA regulations 
identified in the Aircraft Operator Standard Security Program and 
supporting Security Directives. Likewise, we inspect foreign air 
carriers that fly to the United States to ensure they operate in 
compliance with TSA's Model Security Program and supporting Emergency 
Amendments. These inspections enable risks to the international air 
transport system to be identified, followed by mitigation through 
outreach/engagement and capacity development.
    Extensive global outreach and engagement is conducted by working at 
global, regional, and bilateral levels to encourage international 
counterparts to recognize that the threat to the aviation sector 
remains high and therefore mitigation measures must be developed and 
implemented to counter existing threats as well as new and emerging 
threats as they arise. At the global level, TSA OGS works with ICAO to 
establish and enhance baseline international standards in place for 
aviation security. At the regional and bilateral level, TSA 
Representatives are stationed in key locations worldwide to work with 
foreign governments in developing effective and complementary 
transportation security measures and to support immediate 
implementation of enhanced security measures as necessary.
    TSA also conducts outreach activities to engage the aviation 
industry, particularly air carriers and aviation stakeholders such as 
International Air Transport Association (IATA), Air Transport 
Association, American Association of Airport Executives, and Airports 
Council International. Our International Industry Representatives work 
closely with industry to ensure that necessary requirements for foreign 
air carriers are implemented and to alert airlines to new threats, 
while our Principal Security Specialists provide the same coordination 
and oversight with U.S. carriers.
    TSA further mitigates risk by helping partner nations build 
sustainable aviation security practices through capacity development. 
An important part of this effort is aviation security training and 
technical assistance to meet needs identified by the Departments of 
Homeland Security, State and Transportation, ICAO and civil aviation 
authorities of foreign governments. TSA provides aviation security 
training to foreign partners through a variety of courses in screener 
supervisor skills, preventative security measures, crisis management, 
basic security training, cargo security inspections, train the trainer, 
and others.
    In addition, TSA's Aviation Security Sustainable International 
Standards Team (ASSIST) program provides comprehensive technical 
assistance to countries with demonstrated difficulty in satisfying the 
security Standards and appropriate Recommended Practices established by 
ICAO. The ASSIST program addresses the self-identified civil aviation 
security needs of the host nation by aiding the establishment of 
sustainable institutions and practices through aviation security 
training, technical assistance, and overall security assessments.

                           RECENT ACTIVITIES

    TSA OGS is continuously working to enhance global aviation security 
across our three mission areas. In the area of compliance, our 
inspectors have conducted 185 airport assessments, 1,149 foreign air 
carrier station assessments and 290 cargo station assessments over the 
last 18 months. We have also completed 154 visits to foreign repair 
stations in advance of the issuance of a final rule governing security 
at such repair stations. When combining all engagement performed over 
the last year and a half, we have conducted outreach with over 150 
foreign governments.
    To further aid TSA's international active engagement efforts, we 
work closely with our multilateral, regional, and industry partners, 
including IATA, ICAO, the European Commission, the European Civil 
Aviation Commission, the Latin American Civil Aviation Commission, and 
the International Working Group on Land Transport Security. In support 
of an initiative announced by Secretary Janet Napolitano early this 
year, Administrator John Pistole engaged with international 
counterparts in Switzerland and Belgium this past March to discuss 
efforts to secure global supply chains with international cargo 
organizations and government officials. During the visit, Administrator 
Pistole met with the World Customs Organization Secretary General and 
the Director of the Universal Postal Union among others.
    In addition, TSA continues to coordinate with our sister components 
at DHS, as well other relevant agencies, such as the Department of 
State and the Federal Aviation Administration, to further enhance the 
inter-agency process and communication. For example, TSA works closely 
with U.S. Customs and Border Protection (CBP) through current 
initiatives such as the Air Cargo Advance Screening Project. Through 
this effort, TSA and CBP obtain manifest information for cargo destined 
for the United States before it is loaded on inbound flights, allowing 
TSA and CBP analysts to identify shipments warranting heightened 
screening based on jointly developed standards for high-risk cargo.
    OGS recently created a Rapid Response team based at the 
Transportation Security Operations Center to oversee all international 
critical incident management activities. The capability of the Rapid 
Response team to get into a region in crisis quickly and mitigate 
security vulnerabilities is vital to the international TSA mission. 
Most recently, the team responded to the earthquake and tsunami in 
Japan by deploying additional personnel to assist OGS staff working at 
the U.S. Embassy in Tokyo. The Rapid Response ensured unified and 
continued communication and collaboration between the Departments of 
State and Homeland Security.
    Following the earthquake in Haiti in 2010, TSA deployed a Rapid 
Response to assist that country and international aid organizations in 
re-opening the Port Au Prince airport. Opening up the airport was 
essential to the international relief effort and to the delivery of 
goods to the county in the wake of the disaster. The OGS ASSIST program 
began where the Rapid Response Team left off and worked with Haitian 
officials, carriers, and other countries to provide technology and 
training to ensure that security requirements were met at the airport.
    Assistance and training have also recently been provided to other 
countries including Liberia, St. Lucia, Georgia and Yemen. Following 
the attempted terrorist attacks on cargo operations this past October, 
TSA immediately deployed a team to Yemen to assess cargo security 
programs. Subsequently, TSA procured and delivered Explosives Trace 
Detection (ETD) equipment and provided training to mitigate threats to 
the cargo security network. Separately, in Liberia, OGS coordinated 
with the host government and Delta Airlines to ensure aviation security 
standards were met, opening the way for direct flights from Liberia to 
the United States.
    In the final mission area of capacity development, we work closely 
with ICAO and other foreign partners to eliminate duplicative efforts 
by coordinating training given by donor nations to countries in need of 
technical assistance. In fiscal year 2010, our Capacity Development 
branch provided 45 aviation security training sessions in 28 countries 
and is scheduled to provide 51 sessions in 35 countries in fiscal year 
2011. New courses in development will include topics such as National 
civil aviation security program development, interviewing techniques 
for suspicious persons, and training and recertification program 
development.

                             LOOKING AHEAD

    Key among TSA OGS's priorities to address the evolving threat are 
initiatives designed to continue to develop a workforce of capable and 
responsive international personnel. There will be increased emphasis on 
expanding the knowledge, skills, and abilities of the OGS workforce as 
the challenges they are expected to face will require advanced 
technical knowledge, diplomacy, adaptability, innovation, precise 
judgment, creative problem solving, and an understanding of the 
international norms and cultures.
    OGS will continue to visit and assess international airports in 
order to verify compliance with international standards and TSA 
security requirements. Additionally, we will pursue increased access to 
those international airports that present a high risk especially where 
TSA believes it is necessary to more frequently review compliance. Key 
priorities related to compliance in the years ahead include: 
Incorporating more advanced risk analysis in our compliance operations 
to look beyond the Standards and Recommended Practices put forward by 
ICAO to identify vulnerabilities more broadly in order to quantify 
risks; enhancing automation efforts to allow for data examination to 
support risk analysis; and identifying enhancements to international 
standards or TSA requirements.
    TSA OGS will continue outreach and engagement to foster a common 
view of the threat at the international level, which will also increase 
our ability to conduct compliance and capacity development efforts. 
Outreach and engagement efforts in the years ahead will continue to 
occur at the global, regional, bilateral, and industry levels. These 
efforts include: Active support and engagement with ICAO; finding 
mechanisms to share releasable threat data through ICAO's information 
sharing framework to encourage mutual recognition of the threat to 
international aviation; coordination of international capacity 
development efforts through ICAO to ensure the provision of technical 
assistance to those most in need, sharing resources, and avoiding 
duplication of effort; developing more robust coalitions at the 
regional level to advance strategic goals and objectives; and 
strengthening partnerships with key aviation security partners, 
including key industry stakeholders, to advance strategic goals and 
objectives.
    We will continue to work to effectively address the needs of 
partner nations to build sustainable aviation security practices 
through capacity development. TSA will continue to support capacity 
development efforts and work to establish the ASSIST Program as an 
international model for capacity development while also exporting the 
program to more locations to expand its reach and provide technical 
assistance to additional governments.

                               CONCLUSION

    OGS is one part of the holistic approach to security that TSA uses 
to mitigate the threat both internationally and domestically. Our 
international efforts effectively provide the first layer of security 
thousands of miles from our shores. I always say that the sun never 
sets on OGS, as we have someone at work around the world, every minute 
of every day.
    Mr. Chairman, Ranking Member Jackson Lee, I thank you for the 
opportunity to appear before you today and I look forward to answering 
your questions about TSA's work in the international arena.

    Mr. Rogers. I thank the gentleman.
    I will start off with the questions.
    In reading the briefing on this hearing, I was struck by 
the fact that the ICAO offers suggested uniform standards, but 
there is no compulsion by the member organizations to 
participate at those standards. Is that accurate?
    Mr. Halinski. Sir, ICAO sets a standard internationally to 
the 190 countries, and what ICAO strives to do is to ensure 
that these countries meet those minimum standards, and what we 
try to do within TSA is work with ICAO. We have people on 
several of their subcommittees to develop new standards that 
try to increase the level of security worldwide. This is done 
in a very formal process. It takes about 3 years to pass these 
new types of standards, but we work very cooperatively with 
them.
    The reason that I think that ICAO standards are very broad 
and general in nature in some cases is so that every country 
can try to reach those minimum standards, and they have done a 
lot of work most recently I think in increasing and enhancing 
those standards. It is a good partnership relationship for us, 
quite frankly, because it enables us the opportunity to work 
with an organization that has that international recognition.
    Mr. Rogers. Excellent.
    In looking at your organization, I understand you have got 
21 TSA representatives and 50 inspectors, is that accurate?
    Mr. Halinski. Yes, sir, we have approximately 25 TSA 
representatives, and we have approximately 50 inspectors, yes, 
sir.
    Mr. Rogers. You have got 300 airports that you--and how 
many countries that you are trying to inspect?
    Mr. Halinski. Sir, we inspect--there are approximately 300 
last-point-of-departure airports to the United States that 
stretch across approximately 100 countries, plus the air 
carrier inspections that we are required to conduct under 
Federal regulation as well as cargo stations.
    Mr. Rogers. Are those 75 personnel adequate for that 
mission?
    Mr. Halinski. Sir, I would tell you that when OGS was 
created--we are a new organization. We were created about 3\1/
2\ years ago. At the time, we believed that that organizational 
structure would meet those requirements. As we can see from 12/
25 and from the recent cargo threat and the increase in the 
need for international operations, that there has been a 
significant increase in the need for the international mission.
    Mr. Rogers. Let me ask, in dealing with the foreign 
countries, how do you ensure that those foreign countries are 
going to meet our minimum standards or the suggested minimum 
standards by ICAO? Is it just collaborative? Is there anything 
coercive that you can do to ensure that they try to meet those 
standards?
    Mr. Halinski. Sir, we look at it from a three-tier 
approach, actually. The first tier is we have the International 
Civil Aviation Organization standards. If it is a last point of 
departure to the United States, we also have TSA standards for 
the specific flights that go and come into the United States.
    The first thing we do is we do have inspectors and we do 
assessments of the airports and of those air carriers to meet 
TSA standards for the air carriers, ICAO standards for the 
airports. If we have a problem, this is where our TSA 
representatives come into play. We identify the problem, and 
our TSA representatives then try to work collaboratively with 
that host government to reduce the issues of vulnerability that 
may have been identified.
    The third part of our outreach actually deals with capacity 
development. In some countries that don't have the capability 
to fix those problems, we try to help them develop a system 
that they can fix those problems and then take them on 
themselves. Continuing to help them in the long term, we are 
trying to build a system for them so that they are capable to 
do it themselves.
    So it is really a three-tier approach.
    To get back to the basis of your question, we believe in a 
very strong partnership, sir, and that requires developing a 
relationship with all of the countries that have flights to the 
United States so that we can work together when we identify 
problems and vulnerabilities.
    Mr. Rogers. What I am concerned about is when a country 
refuses to be helpful. For example, Venezuela has refused to 
allow your TSA inspectors to inspect their security systems for 
flights coming to the United States. What can you do to help 
them behave? Can you refuse to allow the flights to come into 
the United States?
    Mr. Halinski. Yes, sir. There is a process, and it is a 
tiered process.
    The first step that we generally take is what we call a 90-
day action, and that is where we identify the problem to the 
country, and there is a 90-day period for them to take 
corrective action.
    If that doesn't occur and this goes from TSA then to the 
Secretarial level, there are a couple of other options, one 
being public notice. As in the case of Venezuela, they are 
currently on public notice. We have not found vulnerabilities 
in the system because we have not been allowed to go in and 
look at the system. That is why they are on public notice. 
Public notice basically notifies the world, airports throughout 
the world, that we cannot see the security system in that 
particular country--for example, with Venezuela--or whatever 
other problems are there, and we put it out publicly.
    The final stage is, sir, there is the authority to suspend 
flight from that country to the United States, and that is an 
action that is taken at the Secretarial level, with a lot of 
cooperation between Homeland Security and the Department of 
State, sir.
    Mr. Rogers. Well, I would urge you to urge the Secretary to 
use that power liberally. If a country is so belligerent and 
anti-American as Venezuela that is not going to allow us to 
inspect their security systems, I don't want a plane coming out 
of that country into the United States.
    With that, I would yield to the Ranking Member for any 
questions she may have.
    Ms. Jackson Lee. Mr. Chairman, thank you; and thank you to 
the witness. Let me thank you for your years of service in the 
United States military and particularly for your assistance in 
evacuating Americans in 2006 from Lebanon.
    I continue to believe, as I indicated in my opening 
statement, that terrorism is a franchise operation. There is no 
need to be called massively, 200 and 300 people, but someone 
can act upon this in a manner that is an individual act and can 
take out thousands of lives.
    Tell me how many stations are in the system. What is the 
number that we are working with that your staff would need to 
have access to?
    Mr. Halinski. Ma'am, I will tell you that there are 
approximately 300 last-point-of-departure airports to the 
United States, and I say approximately because it varies 
depending on the time of year. We also look at up to 1,000 air 
carriers a year that fly from these airports into and out of 
the United States, and that is both domestic and U.S. air 
carriers. Then, with the upcoming final rule for repair 
stations, we will be looking at approximately 750 repair 
stations worldwide, based on that rule. Plus approximately 400 
to 500 cargo facilities worldwide as well.
    Ms. Jackson Lee. Break them down as to what locations they 
are in.
    Mr. Halinski. Yes, ma'am. I would say that--and I do have a 
graphic. I don't know if it has been put up. It is the second 
graphic. It is a color-coded graphic.
    The areas in blue are basically last point of departure, 
and that would include any--and then there are some numbers and 
figures there that outline it by the total number of last-
point-of-departure-airports, cargo----
    Ms. Jackson Lee. How many are in Europe? How many are not 
in Europe?
    Mr. Halinski. Yes, ma'am. A large majority of last point of 
departures are in Europe. We have approximately 64 airports in 
Europe, four cargo airports that we look at. Foreign repair 
stations, there are about 452.
    Ms. Jackson Lee. In Europe and in the others outside, what 
would you characterize as a particularly challenging site that 
is outside of the European area?
    Mr. Halinski. Yes, ma'am. I would say that what we have 
found, particularly outside the United States, is that the 
quality of aviation security varies depending on the region. 
Europe and the United States are very comparable. Canada and 
the United States are very comparable, Australia and the United 
States. When you start to move to other areas, particularly 
Africa, some areas in the Middle East, some areas in South 
Asia, and some areas in Latin America, the standards are not as 
comparable to the United States or to Europe.
    Ms. Jackson Lee. So, with respect to your team, you would 
advocate for increased resources to provide the kind of 
skilled, trained personnel that can help in these expanded 
airports?
    Mr. Halinski. Yes, ma'am.
    I would say that when we envisioned originally OGS starting 
about 3\1/2\ years ago, we were looking at it from the 
compliance piece. This was before 12/25. It was before the 
cargo threat, and that has significantly focused on 
international operations. The threat is outside of the United 
States coming in, and we were staffed at that level 3\1/2\ 
years ago, ma'am.
    Ms. Jackson Lee. Is that 168 with 50 inspectors?
    Mr. Halinski. It is roughly about 160 personnel with 
roughly 50 inspectors, yes, ma'am. Then I have my TSA 
representatives and I have my industry reps that deal with 
foreign air carriers.
    Ms. Jackson Lee. You were, in essence, allotted 75 new 
slots. What is the status of that?
    Mr. Halinski. Yes, ma'am. After 12/25, we were supposed to 
get 75 new employees based on this fiscal year. Currently, 
ma'am, based on the budget, we have not hired those employees 
yet because we do not have the authorization to hire those 
employees at this point.
    Ms. Jackson Lee. Following on that line of reasoning, the 
present budget that is being offered by the majority would cut 
TSA by $42 million; and I understand this type of cut would 
impact on your ability to expand your presence overseas. Can 
you explain the importance of having more officers overseas? 
What other detrimental impact would come about by those budget 
cuts?
    Mr. Halinski. Ma'am, I am not familiar with the budget cuts 
themselves and what that would mean. I do believe that we need 
to increase our overall capability to work within the 
international community, because the international community 
faces a threat. If there is a threat that attacks the aviation 
system, the aviation system is a global system, so we need to 
increase the relationship of working with our partners. To 
develop those types of relationships, you have to talk to 
people face to face. You have to build those relationships. You 
have to build a level of trust.
    Ms. Jackson Lee. What do you think was most instrumental in 
the circumstances of the Christmas day bomb? Was your office 
involved or was your office involved in the fix?
    Mr. Halinski. Yes, ma'am. I would say that one of the 
things that we did--I think one of the vulnerabilities of that 
particular attack was the fact that the threat was able to 
manipulate the system and use a device from a threat 
perspective that would defeat most of the standard security 
technology that was out there. They did this by using a 
nonmetallic device put in an area of his body that was 
culturally taboo for a lot of security systems throughout the 
world.
    One of the things we did was immediately put into effect a 
security directive and an emergency amendment for all flights 
to the U.S. inbound. These measures were very draconian. 
Because what they required, quite frankly, until we understood 
the threat better, was a 100 percent full body pat-down; and we 
believed that that would immediately mitigate the threat. We 
have now a belief in the use of other technology which we think 
we can do that, and we have modified that.
    But, specifically, I would like to talk about what we did 
in working with some of the countries, for example, Nigeria. In 
Nigeria, we have worked extensively with them over the past 
couple of years; and, if you remember, the Christmas day bomber 
flew through Nigeria.
    Ms. Jackson Lee. That is correct.
    Mr. Halinski. We have worked with Nigeria. They have 
increased their security system, I would say, 10-fold, ma'am. 
They are one of the few countries in the world that actually 
use AIT technology in primary right now. We have worked with 
them so that they have opened two new areas, both Lagos and 
Abuja, with direct flights by U.S. carriers to the United 
States. We have done this extensively through our ASSIST 
program, through training with them, and through working with 
them over the past, I would say, 3 years on this.
    Ms. Jackson Lee. I thank the Chairman for his indulgence.
    I think it is important to get on the record the kind of 
impact that this particular office has had in ramping up the 
security parameters of countries that you would not expect to 
have that. I think you have said that Nigeria and South Africa 
are the two top African countries that have raised their 
standards of security at their airports?
    Mr. Halinski. Yes, ma'am. This is my opinion, that the two 
leading proponents of aviation security within the continent of 
Africa I think are South Africa and Nigeria. They have enormous 
influence.
    Nigeria has also partnered with us and held one of the 
regional conferences for aviation security last year with our 
Deputy Secretary, and we are hosting an insider threat 
conference in Abuja in October of this year, which is another 
part of the aviation security aspect. So they have been very 
forward-leaning, supporting, and influencing aviation security 
throughout the region.
    Ms. Jackson Lee. I thank the witness, and I thank the 
Chairman.
    Mr. Rogers. I thank the gentlelady.
    She is absolutely right. We both agree that you need to 
have more than 50 inspectors in your office. Obviously, I think 
you need more than 25 representatives to work with those 
inspectors; and hopefully we can help you address that.
    The Chairman now recognizes the gentleman from Michigan, 
Mr. Walberg, for any questions he may have.
    Mr. Walberg. Thank you, Mr. Chairman; and I thank the 
witness for being here today and the work you do.
    Continuing some of that train of questioning, the European 
Union conducts 100 percent screening of airport workers, while 
the United States uses a random approach, as I understand, to 
worker screening. To what extent has the United States or 
European Union modified its worker screening procedures to 
address these differences, or have they agreed to mutually 
recognize different approaches in achieving an equivalent 
result?
    Mr. Halinski. Sir, first, let me say that I just attended 
an Aviation Security Panel in Montreal for ICAO, and that was 
one of the topics there for the Aviation Security Panel. The 
panel actually meets once a year to decide key issues for the 
international standards. This is one of the key questions, 
because we do have, I would say, a divergence of opinion on 100 
percent staff screening.
    Actually, let me put it this way. I think that we all agree 
on 100 percent screening of staff. It is the methodology that 
is used where we have a divergence.
    TSA has a philosophy of the use of unpredictability. While 
a lot of countries in the world define 100 percent staff 
screening as a member going through a walk-through metal 
detector and perhaps an X-ray machine, one of the problems that 
we have with that is it is our belief that is a single point of 
failure.
    If you have an insider who knows the system and knows who 
is on duty and they walk through that walk-through metal 
detector--and, quite frankly, the threat is nonmetallic at this 
point. We think if you are relying on that as your only point 
for staff screening it is a single point of failure. So what we 
try to do is build a defense in depth, overlaying layers of 
depth for employees.
    One of the first things that we do, sir, is perpetual 
vetting of anybody that has a badge through our TTAC, and that 
is our credentialing system.
    Mr. Walberg. TTAC again?
    Mr. Halinski. It is the----
    Mr. Walberg. I am sorry----
    Mr. Halinski. I am going to catch a lot of grief when I go 
back, sir, on this because I didn't know it. I believe it is 
the Terrorist Threat Analysis and Credentialing.
    Mr. Walberg. See, I don't feel half as dumb now.
    Mr. Halinski. I am going to catch a lot of grief on this 
one, sir.
    But TTAC, what they are is they vet our people against 
criminal and terrorism databases on a 24/7 basis, sir. Most 
countries in the world, they do vetting of their personnel 
about once every 5 years. So this is an enormous advantage when 
it comes to the insider threat. That is No. 1.
    No. 2, we do have screening checkpoints on and off, and we 
use a system of unpredictability where we will put our TSOs at 
various areas behind the sterile area and throughout the 
building and they will conduct a screening of people that do 
have badges on a random basis.
    Why do we believe this is so important? It is because if 
you can introduce unpredictability and random in a security 
solution what you are doing is you are mitigating the insider 
threat. I would tell you that it is not just staff screening. 
What we are talking about really is mitigating the insider 
threat.
    So we take a varied approach to it. We use various layers, 
and I think that is going to be much more productive when it 
comes to mitigating the insider threat. We are not opposed to 
100 percent screening. We just believe that you need a few more 
layers.
    Mr. Walberg. Has there been push-back against that approach 
from TSA?
    Mr. Halinski. No, sir, not from TSA. I think TSA agrees 
with this approach.
    Where we have found divergence is in the opinions of the 
international community. Like we said, we agree with 100 
percent screening of staff. It is just the methodology used. So 
I think it is the interpretation. It is something I think that 
ICAO has taken on-board. There is a committee, an international 
committee, that is now formed to try to define what this is; 
and we plan to work actively within the committee to come to 
some kind of resolution on this particular question where it 
will be presented next year in Montreal at the Aviation 
Security Panel, which is part of ICAO.
    Mr. Walberg. That is helpful.
    What type of training do TSA representatives and TSA 
inspectors receive?
    Mr. Halinski. Sir, I would like to tell you, we are a 
little bit different than everybody else in TSA. Because what 
we try to do is, No. 1, our people work exclusively overseas. 
So what we are looking for when we hire a TSA representative or 
an industry rep, No. 1, we are looking for maturity. We are 
looking for people who have the skill set to work overseas.
    A lot of our people--I would say at least 75 percent--speak 
more than one language, and we are looking for people who 
display diplomatic skills. Because what we are talking about, 
both with the industry rep and the TSA rep, is we are going to 
put you in a foreign location and we want you to develop a 
relationship--more importantly, a partnership--with a foreign 
government, with foreign air carriers and foreign stakeholders. 
Because that partnership becomes important when we have a 12/
25. We need to be able to pick up the phone and call on our 
partners and say, we need your help.
    So that is really what we are looking for when we look at 
our people, is maturity, professionalism, diplomatic skills, 
and the ability to work overseas by themselves.
    Mr. Walberg. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman; and thank 
you, Mr. Halinski.
    Let me ask you, have we had any instances where countries 
have attempted to deny access to our inspectors? If so, what 
rationale did they give?
    Mr. Halinski. Yes, sir. I would say that that is a problem 
that we face, and it is a challenge that we face where the 
rationale can vary to--that they don't believe that we have the 
authority to come in and look at their country. It can vary to 
the fact that they may be embarrassed about their particular 
system and they don't want us in there. It could be a variety 
of reasons.
    So one of the things that we try to do is to work very 
diplomatically. This is where we really have a great 
partnership with the Department of State. We work through the 
embassies and we work through the Department of State to try to 
overcome any kind of hesitation to look and see what these 
systems are.
    Quite frankly, a lot of it sometimes is just the education 
factor, the factor that we need to tell them and explain to 
them we have a regulatory responsibility to look at a last-
point-of-departure airports to the United States; and we have 
to look at any flight that is coming into the United States. It 
is not that we are there to judge your system. It is there 
because we view this as our right, because you are flying into 
our country, to protect our country and that we have that right 
under the international conventions under ICAO.
    Mr. Davis. How successful would you say that these 
negotiations have been?
    Mr. Halinski. Sir, I would say that we have been 
exceptionally successful, except in one case. That case, quite 
frankly, would be Venezuela at this point.
    Mr. Davis. When training does occur, who generally 
initiates the training? I mean, is it a recommendation that we 
might make? Or is it a recognition on the part of the host 
country that they are in need of assistance and might request 
training?
    Mr. Halinski. It is a great question, sir. Actually, it is 
both. When we identify vulnerabilities or problems in a system, 
then we turn to our TSA representatives who offer that type of 
training.
    At the same time, we get a lot of requests from countries 
that feel that they want to upgrade their system, and so we 
will go and conduct a survey. In some cases, they are not last 
point of departure to the United States. That is our first 
priority. But we will go do a survey, and we will try to help 
them.
    I would like to use the case of Liberia, sir. A couple of 
years ago, we were approached by the Liberian Government that 
they wanted direct service to the United States. We went and 
looked at the airport; and we said, you are not ready for 
direct service. Our TSA determined that they were a priority to 
the United States. Delta Airlines was willing to fly in there; 
and, quite frankly, it is going to help open up West Africa.
    We committed to 18 months worth of assistance to Liberia. 
We worked extensively with them, getting their system up to 
minimum ICAO standards. I would tell you, it is a success story 
for us. Because, right now, there is a direct service between 
Liberia and the United States, stopping in Ghana. So we were 
able to open that airport.
    We have had success recently in Angola doing the same type 
of operation, helping them build their airport system so that 
they can fly direct to the United States.
    What we have found, sir, is--as I said, we are a three-
prong approach. You can walk into an airport and say, you know 
what, you have problems with your systems. But if I walk out 
the door and don't do anything about it, I am going to come 
back next year and find the same thing. So what we want to do 
is we want to try to help them get that system up to the 
standards. Because it not only helps the United States. Quite 
frankly, it helps the entire global system.
    Mr. Davis. You mentioned the role of the State Department. 
Have you found that--while we are basically concerned about 
airport security, have you found that these interactions and 
negotiations perhaps have also been helpful to our country in 
building relationships with other countries that we didn't 
necessarily have or did not have to the extent that now we 
perhaps do?
    Mr. Halinski. Absolutely, sir. We work very closely with 
the Department of State. We have TSA representatives, as I 
think was on one of the graphics, posted in embassies 
worldwide. The whole idea is to work within the partnership of 
both Department of State and we work with our Department very 
closely and the components within our Department overseas. 
Because it really is a joint effort. What we have found is, for 
the amount of training, for the amount of engagement that we 
do, we reap the benefits five-fold, quite frankly; and anytime 
we can raise the international standard up, it helps the entire 
system, sir.
    Mr. Davis. Thank you very much, sir. Thank you, Mr. 
Chairman. I yield back the balance of my time.
    Mr. Rogers. Thank you, Mr. Davis.
    I want to be clear on something. Mr. Davis asked you about 
whether we provide training or not. Do you have the authority 
to provide training? I know you can't provide equipment.
    Mr. Halinski. Sir, I do not have the direct authority to 
provide training. What I have is I work through the State 
Department and--I work through the State Department. So we have 
to work collaboratively with the State Department to provide 
that training, because I don't have the authorization to 
directly provide training to a country.
    Mr. Rogers. Okay. We need to work on that.
    The Chairman now recognizes a Member of the committee who 
knows more about these foreign airports than anybody else on 
the committee since he has flown in and out of them, the 
gentleman from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you for your service in the Corps. Were you O-3?
    Mr. Halinski. O-3, yes, sir.
    Mr. Cravaack. Okay. I know we are in good hands then. So 
thank you very much.
    I just have a couple of questions. I have flown in and out 
of third-world countries, both as a flying passenger and also 
as a freight dog, flying 747 cargo. I have seen operations on 
both sides. You hit the nail right on the head. You have to 
have layers of security, and single point is just not going to 
work.
    To be clear, to make sure the committee understands, we do 
100 percent screening here in the United States. We just do it 
in a different method. They may not pass through a metal 
detector or something of that sort. But the other ones that 
don't do that on a daily basis, just to confirm, sir, that they 
do have extensive background checks and things of that nature, 
would be able to show an ID, would that be correct?
    Mr. Halinski. Yes, sir that is correct.
    Mr. Cravaack. Okay. That is great. I just wanted to make 
sure everybody was clear on that. Nobody does get on an airport 
property without being screened in some capacity.
    I just had a question in regards to the most recent E.U. 
change of venue in regards to gels and liquids that can be 
brought on-board aircraft after going through screening. As I 
understand, it can be purchased in a secure area and then 
brought on-board an aircraft. Could you comment on that, and 
what are your views on this?
    Mr. Halinski. Yes, sir. This goes back to the liquids, 
aerosols, and gels scare that we had in 2006; and everyone, 
quite frankly, worldwide has been trying to work a technology 
solution into this. Most recently, we know that the European 
Union has passed two pieces of legislation. I am sure one of my 
fellow panelists might correct me if I make a mistake here, 
because we work together all the time, and we are very familiar 
with each other's practices and our regulations.
    Currently, the European Union at the end of April will 
reach what is called phase one with the way they are screening 
liquids, aerosols, and gels; and then 2 years, in 2013, they 
will reach another level. In the most current changes they are 
looking at, it is the allowance of liquids, aerosols, and gels 
in steps which are the sealable, tamper-evident bags which are 
going to be screened in a certain manner coming to the United 
States or throughout that region.
    We have been working very closely with the European Union 
on this particular issue. We have sent teams to the European 
Union, and they have sent teams here. We have regular meetings 
with the European Union on this issue, and we are trying to 
both find a technology solution to this and a practical way 
forward on this, sir.
    Mr. Cravaack. Thank you.
    In going into some of the countries I have gone into, one 
of the chief concerns that I have always had is the standard of 
living in a lot of these countries is extremely low. In seeing 
some of the security that is at the airport, around the airport 
and within the airport, one of the concerns I have always had 
is corruption and where a few dollars can buy access very 
easily into an airport.
    Does the TSA address some of these problems in regards to, 
you know, how members of security forces around airports and 
within airports are making sure that they are--for a lack of a 
better word--paid well but made sure that they are a little bit 
beyond reproach from being corrupted?
    Mr. Halinski. Yes, sir. Let me use a couple of examples 
here on how we do that.
    There are places throughout the world where we know that 
corruption is a major factor. So what we try to do is, when we 
build an emergency amendment or security directive, which can 
be global in instances or it can be for specific regions, if we 
have a belief that there is a region in the world or a country 
in the world where that is a major factor, we will build 
mitigation measures against that.
    A good example of this, sir, is in a couple of countries 
where there might be an issue with corruption. We have 100--or 
there might be an issue on the use of technology and the 
capability to use technology. What we have built in is that, 
for example, 100 percent hand search by a contractor that is 
paid for by the air carrier of everything before the flight and 
then another layer at the gate and another layer perhaps plane-
side.
    The reason we do this is for the corruption factor itself, 
sir. We consider that when we do our risk analysis of any of 
the last-point-of-departure airports. So what we try to do is, 
in many cases, you will see emergency amendments or security 
directives that are geared towards specific countries where we 
have identified a problem like that, sir.
    Mr. Cravaack. Thank you very much. I have 8 seconds left, 
and I yield back. Thank you, sir.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the Vice Chairman of the 
committee, Mr. Walsh of Illinois, for 5 minutes.
    Mr. Walsh. Thank you, Mr. Chairman; and, Mr. Halinski, 
thank you for being with us today.
    Let me drill down on a topic that you have touched upon, 
the way we conduct assessments of foreign airports. Drill down 
on that for me. How exhaustive a process is that? How 
challenging a process is that? What sorts of specific 
challenges do you run into constantly?
    Mr. Halinski. All right, sir.
    What we do, first off, is we do a risk analysis of all of 
the airports that we are going to, and we identify them on what 
we consider to be the highest-threat airports, and the 
regularity that we will go to those airports is more frequent 
than we might to some other airports that have higher 
standards. That is No. 1.
    No. 2 is, we then work with the State Department and 
foreign government there, our TSA representatives, to schedule 
an assessment. Sometimes we just can't schedule it by picking 
up the phone. It is a diplomatic process. It could take 6 
months to get into an airport. It can take 30 days. It all 
depends on that relationship, which is key.
    I then send a team of inspectors--and I have inspectors 
posted throughout the world--that will go in, and usually it is 
two to three inspectors, and they drill in on three areas. 
Because they are using for the airport ICAO standards.
    I like to say my inspectors are very experienced people. 
Because the three ways they can do that--because you have to 
also realize, they know we are coming into the airport. So they 
are going to put their best foot forward.
    Mr. Walsh. There is no way around that?
    Mr. Halinski. There is no way around that, sir. We can't go 
in unless we have diplomatic approval.
    So what we do is we train our inspectors in three ways.
    One is observation. No matter how good you put your front 
foot forward, you are going to be able to observe things at a 
large airport, walking around that airport, because we are 
going to be there for about 5 to 7 days.
    The second piece is conversation. We are going to talk to a 
variety of people. In that exchange, we always start picking 
out kernels, and we link that with observation.
    Then we look for documentation. Do they have their records? 
What do the records reflect? Then we are going to ask questions 
based from the records, on the conversations, and what we 
observe. Well, they put this in writing, but, you know what, I 
don't see this here. This is why we take about 5 to 7 days.
    Mr. Walsh. Even though they know you are coming and they 
are putting their best foot forward, the folks that we have 
got, your investigators, are adept enough at seeing through 
things and reading things?
    Mr. Halinski. Yes, sir. In fact, to come into OGS we won't 
hire an inspector unless they have had 4 to 5 years of 
inspection training within domestic airports; and then at that 
point we give them extensive training on the international 
standards. So they are aware of that.
    Some of our better inspectors we then send to the ICAO 
auditing course when we get an opportunity to do that. ICAO has 
been very helpful in getting us to those. We have sent some of 
our inspectors to the European auditing course so we have an 
exchange of ideas and best practices.
    Mr. Walsh. Remind me again, what would cause you to send 
inspections to an airport?
    Mr. Halinski. If it is a last-point-of-departure airport to 
the United States, sir.
    Mr. Walsh. Those are inspected on a regular basis?
    Mr. Halinski. Yes, sir, they are. It depends on the 
airport. Once again, with 300 airports, I have a limited number 
of inspectors. So what we have to do is we base it on--we work 
very closely with our intelligence people. We base it on 
threat, and we base it on risk. This is why we may go to an 
airport in this region once every year, and we may not go to an 
airport in another area except once every 2 years because they 
have a comparable system, the threat is not as high. We want to 
focus based on threat, where we think it is emanating from, and 
that is where we need to focus our efforts with limited assets.
    Mr. Walsh. Is cooperation ever a factor in these 
inspections? Is there resistance?
    Mr. Halinski. It all depends, sir. Quite frankly, that goes 
back to the training of my inspectors. I have to have a person 
that is on the ground that is diplomatic; and if there is 
confrontation, they understand how to handle confrontation. So 
they are trained to do that.
    The other piece is they are trained in the art of 
negotiation. They need to be able to sit across the table from 
someone and ensure that the United States is getting what we 
are requiring. But they also have to understand they need to 
probably give something up there. So they are schooled in the 
art of negotiation. It is a key to developing a strong 
partnership.
    Mr. Walsh. Last question, are there particular geographic 
areas around the world where cooperation is more?
    Mr. Halinski. Yes, sir. I would like to point that we have 
a very good relationship with the European Union, we have a 
great relationship with Canada, Australia. In fact, we have 
formed a group called the Quad; and the purpose of the Quad is 
for the leaders of aviation security to get together--or 
transportation security, quite frankly--twice a year and to 
talk about issues that we think the international community is 
facing.
    It is a very loose group. It is kept that way because the 
more bureaucracy you add on to a problem, you are not going to 
get a solution. So these are the folks that have very good 
systems. We try to work together, and we try to have input to 
the international community and to all of our regions. This is 
important because there are a lot of places where I may have 
difficulty getting in, but I know the Canadians can get in.
    We also partner in a lot of ways. We are partnering with 
the Canadians in Haiti right now. We are looking at partnering 
with Australia in other areas for capacity development, and we 
just finished partnering with the Europeans in the former 
Russian State of Georgia to help build their system.
    Mr. Walsh. Great. Thank you, Mr. Halinski.
    Thank you, Mr. Chairman.
    Mr. Rogers. The Chairman now recognizes the Ranking Member 
for additional questions.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    I think those are wonderful stories, the story of Nigeria, 
the story of Haiti and Georgia; and, as the Chairman said, we 
both agree that this is a major component of the securing of 
America. I think it is important.
    It is already on the public record that we have about 770--
I think you said 772--important sites that are under your 
jurisdiction, 450 or so in Europe. That gives me pause. 
Because, one, you have already acknowledged that there are 72 
unhired positions that you still need--I think about 72 or so--
75 that you still need.
    Let me focus, then, on this repair station. One of our 
colleagues, Congressman Langevin, was very interested and we 
worked very closely on this. It gives me pause, as well, 
because, as we sit here today, our planes are flying in and out 
of international ports, some friendly and some not and some 
with repair stations.
    What is the intensity of your time as it relates to repair 
stations? I use that in the context--and let me just shoot my 
questions out, and then I will just let you--I say that 
because, again, I speak to the individual operator, the 
individual actor rather, that could do harm to an airliner that 
is traveling. So I am concerned about the minuteness of that 
person's actions and how do we feel comfortable--nothing is 
perfect--in our inspection of repair stations.
    Then I would like you just to give me a little bit more on 
the ASSIST Program and whether or not you believe the ASSIST 
Program is successful and what the characteristics of that 
program are that make it successful.
    After the 12/25 Christmas day bombing attempt, we 
dispatched the Secretary of Homeland Security and the 
administrator around the world. I know that they were working 
with your TSA reps and trying to build rapport and trying to 
get more response as it relates to security measures at 
airports.
    My question is: When you are engaging in discussions with 
foreign governments on security screening, are these 
negotiations based on rapport and the talents of your TSA reps? 
Do you need further authority on cementing these agreements and 
these national standards?
    Thank you, Mr. Chairman.
    Mr. Halinski. Yes, ma'am. Let me start with foreign repair 
stations.
    As you said, ma'am, there are approximately 770 foreign 
repair stations that will come under the final rule when it is 
published. We expect that, quite frankly, our fingers crossed, 
ma'am, hoping that it will be late summer or by the end of this 
fiscal year.
    But we cannot wait--because we understand Congress' intent 
on this rule--we can't wait to look at those until a rule is 
done. So what we have done is we have proactively categorized, 
once again based on risk, the repair stations. We have broken 
them down into a tier system.
    That tier system starts with the highest tier, and what I 
am describing here is a repair station that might deal with a 
part of the aircraft that could knock the bird out of the sky. 
Repair the engines, repair the avionics, repair the navigation 
system, the communication system. Tier 1 and Tier 2 are 
critical repairs to that aircraft that will keep it airworthy.
    What we have done--and there are about 160 of these types 
of foreign repair stations outside the United States. So what 
we have done is we have started security assistance visits to 
these facilities. The vast majority of these, over half, quite 
frankly, are in Europe, which we know the standards are very, 
very high. A lot of these are on airport sites, so they already 
have security programs.
    So we have looked at 154 of these foreign repair stations 
already in anticipation of the rule, but just to get a feel for 
how they look. What we have found is actually quite 
encouraging. What we have found is they do have security 
systems, they do run background checks, they do have a security 
manager and a security program, those not only on-site at an 
airport but those off-site.
    We haven't looked at some of the Tier 3 and 4 level repair 
stations because I would describe those that are repair 
stations that are more attuned to being mom-and-pop-type repair 
stations. They may repair the seat cushion on the aircraft. 
They may repair the wheel on the catering cart. Those aren't 
critical to keep the bird in the sky.
    So what we have tried to do is take, with our man pool 
assets, and hit the most critical ones that pose the risk to 
the aircraft. We are anticipating getting to all of these 
facilities when the rule is passed. We will put an emphasis--
because we do know that this is of interest to Congress, ma'am.
    If I could go into the ASSIST program----
    Ms. Jackson Lee. Yes, thank you.
    Mr. Halinski [continuing]. How we deal with ASSIST. We 
actually created the ASSIST program about 3 years ago because, 
quite frankly, if we are ever going to increase the 
international standards, we had to take action. It is one thing 
to walk in the door and tell them, ``You have problems at your 
airport,'' and walk away. It is another thing to help them get 
up to minimum standards.
    So what the idea behind the ASSIST program is is to go in 
and do a survey initially: Where are the problems? So we do a 
baseline survey. What we have found is, in some cases with 
aviation security in countries throughout the world, they don't 
have the laws in place. So we will send in lawyers who actually 
will help them draft their civil aviation laws for aviation 
security, so people have the authority to do security.
    Then we will send in the standard aviation security people. 
But, at the same time, we will send in people that know how to 
handle crisis management. What do you do if you have a plane 
crash? What do you do if you have a terrorist attack? We send 
in public relations. We send in screeners. We send in extensive 
trainers. So we send in a variety of people, because just 
teaching them how to screen isn't going to be enough that they 
meet standards. So it is a full commitment.
    We ask that a country before--and this is the part that is 
essential. Before I am going to commit my money and my assets 
for a period of time to a country, I want that country to come 
back and say, ``We are willing to do this.'' So every time we 
go in, we give them a set of standards. If they don't meet it 
by the time we are scheduled to come back, we don't come back. 
We have an agreement that is signed between the embassy and the 
host government to this fact. We have been very lucky because 
we have been in--when we have had difficulties between the 
embassy and the host government, we have been able to work it 
out, and we have demonstrated a lot of success.
    But the key is, also, don't give away anything for free. If 
you give away something for free, people aren't going to 
respect that. You need to encourage them that this is your 
system, you need to build on this system, and you need to hit 
these checkmarks so that you have sustainability. Because that 
is the key in aviation security: Not that you have the best 
equipment, but can I sustain the system I have, and does it 
meet the mark?
    The last piece, ma'am, is, I believe that we do have the 
authorities that we need, from the standpoint of a regulatory 
standpoint. I would tell you that, when we deal with host 
nations, we welcome, quite frankly, and we want to be on the 
State Department embassy team. I mean, I think that the 
relationship that we have developed with the State Department 
overseas is the right relationship, and it is the way that we 
should work in conjunction with the State Department. It is a 
very good partnership, and it is one that we actually are very 
grateful for.
    Ms. Jackson Lee. Let me just say, that is very important. I 
think we have gained sort of a framework of what your needs 
are. But the fact that you are energetic, you are overt in your 
actions, and it is constant, I think, in terms of securing the 
homeland, that equals due diligence. However you can ramp up 
that level of due diligence, I think is all the better for 
securing the American public and all those who are traveling 
the skies in between nations around the world.
    With that, Mr. Chairman, I will yield back. Thank you.
    Mr. Rogers. I thank the lady.
    The Chairman now recognizes Mr. Cravaack for an additional 
question.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Just one question: Coming from a 30,000-foot level, what 
keeps you up at night?
    Mr. Halinski. Okay, sir, I am asked that question a lot, 
and I am going to be real honest with you. I have a lot of 
really good people that work for me, and it is the same answer 
I would have given you a few years back when I was in the 
Marine Corps, and that is the safety of my people. I put my 
people in Yemen, Kabul, Baghdad, places in Africa like the 
Congo. The idea is to build the system, but what keeps me up at 
night, quite frankly, first and foremost, is the safety and 
welfare of my people.
    The second is that we face a threat that is adaptable, and 
it changes based on what they perceive as vulnerability. They 
have the time, they have the patience, they have the money. We 
have to understand that, that they are going to find a gap in 
the system. There is no 100--and, sir, I will go on record 
saying this. I don't believe there is a 100 percent solution to 
any security system. If you say there is a 100 percent solution 
to a security system, you have never done security work, 
because there is not. So what we can do is we can try to 
mitigate that threat the best way we can.
    My concern, the other part, is the threat, sir. They are 
adaptable, and they modify. When you have the time, when you 
have the money and you have the patience that they have, it is 
very hard to mitigate and defeat that threat.
    Mr. Cravaack. I couldn't agree with you more. It is 
asymmetric warfare, and we have to adapt to overcome. So I 
appreciate your comments on that. I think we have the right man 
for the job, so thank you very much for----
    Ms. Jackson Lee. Will the gentleman yield just for a 
moment?
    Mr. Cravaack. Yes, ma'am, I will yield.
    Ms. Jackson Lee. You were asking about from the skies. Let 
me just ask Mr. Halinski a question.
    I will just hold it up, and I know you have seen it. Is 
this a workable chart for you? You were trying to get the 
acronym going, and I am trying to get an understanding. This is 
not a trick question, it is just that--does this work?
    Mr. Halinski. Ma'am, I am going to be honest----
    Ms. Jackson Lee. This is your chart. Someone is bringing it 
to you. I am not trying to--it looks like an extensive maze, 
and I am just wondering----
    Mr. Halinski. Yes, ma'am. This is my organizational 
structure.
    Ms. Jackson Lee. Can you get your phone calls through?
    Mr. Halinski. Yes, ma'am. I am really going to take a 
beating when I get back to the TSA, of course. But----
    Ms. Jackson Lee. No, it was far away. I wasn't trying to--
it is just that----
    Mr. Halinski. Yes, ma'am. It is my organizational 
structure. Actually, one of the things that we do is----
    Ms. Jackson Lee. Is it streamlined?
    Mr. Halinski. Yes, ma'am, it is streamlined, because one of 
the things we do is we regularly practice communications. One 
of my concerns is always, I have to be able to talk to my 
people in the field. So we have redundant communications. We 
practice on a regular basis.
    The example I want to use is 12/25. From the time we 
started until the time we--we had people worldwide, because we 
have an office open everywhere someplace in the world--it was a 
matter of hours before our people were reaching out to host 
governments and trying to work that mitigation measure.
    So we do practice this, and we have a very good 
communications system.
    I would like to say that TTAC stands for ``Transportation 
Threat Assessment and Credentialing.''
    Ms. Jackson Lee. You have been redeemed.
    I am going to count on you, Mr. Halinski, to come in and 
prove to this committee and to the Chairman that this kind of 
operational chart is easy access in times of emergency and you 
can reach your people and they are all sort of on one page 
here.
    Mr. Halinski. Yes, ma'am.
    Ms. Jackson Lee. In more ways than one.
    Mr. Halinski. Yes, ma'am. Redundant coms is the trick, 
ma'am. Be it phone, be it e-mail, be it BlackBerry, we have a 
way to get hold of them. Trust me, ma'am, I reach out to my 
organization all the time. They don't particularly like it 
because sometimes it is 3 o'clock in the morning or 2 o'clock 
in the morning. But we can reach out very quickly.
    Ms. Jackson Lee. I thank the gentleman for yielding.
    I thank the Chairman.
    Mr. Cravaack. I claim back my time and yield the rest of my 
time, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Thank you, Administrator Halinksi, for your time. It has 
been very helpful to us. Your panel is now dismissed, and we 
will call up the second panel.
    All right. The Chairman will now recognize the second 
panel.
    We have Mr. Filip Cornelis, as the head of the unit of 
aviation security for the European Union. I understand he will 
be testifying in a foreign language this morning.
    Mr. Rafi Ron is the president of New Age Security 
Solutions. He formerly served as director of security at Tel-
Aviv Ben-Gurion International--all three of us on this panel 
were at that airport about 2 weeks ago--and the Israeli Airport 
Authority between 1997 and 2001.
    Mr. Jim Marriott is the chief of the Aviation Security 
Branch at the International Civil Aviation Organization. He is 
responsible for creating and implementing ICAO's aviation 
security and facilities policies.
    I want to state for the record that the committee 
recognizes that Mr. Cornelis as well as Mr. Marriott's 
statements are being given in the spirit of cooperation, are 
voluntary, and these witnesses are not appearing under the 
jurisdiction of the Congress. They represent international 
organizations. We very much appreciate your willingness to be 
here.
    With that, the Chairman now recognizes Mr. Filip Cornelis 
for his opening testimony.

    STATEMENT OF FILIP CORNELIS, HEAD OF UNIT FOR AVIATION 
   SECURITY, DIRECTORATE GENERAL FOR MOBILITY AND TRANSPORT, 
                      EUROPEAN COMMISSION

    Mr. Cornelis. Chairman, thank you very much.
    Honorable Representatives of the House, let me first thank 
you for inviting the European Commission to testify on the 
European Union's partnership with the United States in the 
field of aviation security.
    We strongly believe, in Europe, that we share a common 
agenda with the United States and that we should pursue that 
agenda in tandem to combine and reinforce each other's action. 
We have a very similar assessment of the threat and a very 
similar way of addressing it. Thanks to our respective efforts 
since 9/11, we have succeeded in protecting our aviation system 
from several attempted attacks of sabotage.
    However, we recognize that a lot of work remains to be 
done. Let me say a few words about the European Union's 
relations internationally with the rest of the world and 
bilaterally with the United States.
    First of all, we believe that the International Civil 
Aviation Organization, ICAO, must be the driver for the overall 
policy in order to ensure proper buy-in at the global level. 
The next ICAO triennial period should be guided by the outcome 
of last year's ICAO assembly, notably on the basis of the ICAO 
Declaration on Aviation Security, which, no doubt, my fellow 
panelists will touch upon later. The European Union is 
committed to play its part fully in this work.
    Our most immediate priority in this area is cargo security. 
There is considerable concern among politicians in Europe about 
the security of flights coming into the European Union, in 
particular since last year's incidents. E.U. ministers adopted 
an action plan in December on strengthening air cargo security, 
with tight deadlines for us to meet. The action plan recognizes 
that cargo and mail is, by its nature, a global business, and 
so the cargo security regime must be approached as a global 
challenge. We must keep in mind the need for aviation to 
develop further in a healthy and economically viable way; 
otherwise, the terrorists have already won.
    We support Secretary Napolitano's call to improve global 
supply chain security as a means of reinforcing our air cargo 
regimes. Like the United States, we are examining how existing 
customs systems can be adapted to become a powerful instrument 
for air cargo security. We are also working on screening 
requirements for high-risk cargo.
    So, at the global level, we will work with ICAO through the 
newly established Working Group on Air Cargo Security to 
prepare new ICAO standards and recommended practices in this 
area. We should do this together. Where the United States and 
European Union agree on certain standards, those standards have 
a good chance of becoming global standards. If we set different 
standards, however, we don't achieve higher security, 
necessarily, but probably we do achieve higher costs and 
greater difficulty to ensure proper compliance.
    We have offered our TSA counterparts to prepare new rules 
for air cargo security jointly, including a definition of high-
risk cargo, screening methods, and international supply chain 
security.
    Downstream from the rulemaking, proper implementation of 
global standards is just as important. Capacity-building 
activities in key third countries are essential for delivering 
uniform implementation of international standards. They are 
best focused on those areas that are identified through the 
results of ICAO's Universal Security Audit Program. Here, the 
European Union is in favor of greater transparency of ICAO 
audit results, notably where significant security concerns are 
identified.
    Let me turn to our bilateral relationship. The U.S.-E.U. 
Air Transport Agreement has opened great opportunities here. 
The legal basis established by Article 9 on security of the 
agreement attests to, and I quote, ``the importance of working 
toward compatible practices and standards as a means of 
enhancing air transport security and minimizing regulatory 
divergence.''
    We feel it is worth investing in this work because, 
together, we account for almost 50 percent of global air 
traffic. One in five passengers coming into the United States 
departs from Europe, and vice versa. This represents almost 50 
million passengers. We are also each other's biggest partners 
in terms of air freight, with 2 million metric tons being 
transported annually between the European Union and the United 
States.
    We feel it is worth investing, but we also feel it is 
justified investing in this cooperation because our societies 
possess amongst the most sophisticated security regimes in the 
world. We should capitalize on that fact and treat each other 
as equal partners. The European Union, in the eyes of the 
United States, should not be grouped into the same basket as 
the rest of the world.
    We have a robust, tried-and-tested aviation security 
regime, the merits of which we can and we do share with our 
counterparts in the U.S. administration. The European Union 
rules are very well enforced, owing to a strong system of 
oversight, both at the European Union level and at the level of 
the E.U. member-states, in which TSA officials are regularly 
invited to take part, as our inspectors take part in 
inspections in the United States.
    At a high level, that of Secretary Napolitano and 
Administrator Pistole, the European Union and the United States 
have been heavily engaged in dialog with each other, especially 
since the Northwest Airlines and Yemen incidents. These more 
recent contacts are complemented by a solid history of working 
together for many years on aviation security issues through 
various fora, but we would like to see more practical results 
from those exchanges.
    For example, we discussed new post-Yemen security controls 
for air cargo at various occasions. Against that background, 
the most recent U.S. emergency amendment on cargo and mail came 
as something of a surprise to the European Union and its 
aviation industry. The new requirements had not been discussed 
before and did not take into account the existing measures in 
the European Union which already achieve the same security 
outcomes, or the new rules which are currently being developed 
as part of the action plan and which should be ready for 
adoption before the summer. That is a missed opportunity.
    The European Union believes that much more can be achieved 
through our cooperation by aiming for better security that 
avoids duplication of controls where our systems equivalent, by 
mutually recognizing each other's controls wherever possible, 
not only to facilitate the traveling public, but also to allow 
security staff to focus on real and unchecked threats and to 
free up limited aviation security resources for use elsewhere 
in the system to make air transport more secure.
    We have taken steps in this direction to recognize the 
equivalency of U.S. controls on passengers, for example, and we 
are ready to relax the screening of passengers originating in 
the United States when they transfer at E.U. airports. The 
United States has the National Cargo Security Program, which 
allows TSA to recognize foreign cargo regimes. Although we have 
some specific issues with this program, it is something we very 
much welcome and encourage.
    We have, still, an opportunity to make headway in cargo and 
mail security reform. The aim would be to replace unilateral 
measures, such as U.S. emergency measures, with mutually 
acceptable and mutually compatible security solutions for 
cargo, implemented on flights leaving and coming into our 
respective territories.
    To conclude, Honorable Representatives of the House, it is 
important to underline that the security of international civil 
aviation is a joint responsibility of all countries, not least 
those who account for the biggest amount of traffic. As such, 
the European Union will continue to engage fully with the 
United States, with ICAO, and with other key international 
partners to address the threat to civil aviation, both from 
rules-based and capacity-building perspectives.
    Thank you for providing this opportunity to the European 
Commission to participate in this very important discussion.
    [The statement of Mr. Cornelis follows:]

                  Prepared Statement of Filip Cornelis
                             April 7, 2011

    Honourable Representatives of the House: Let me first thank you for 
inviting the European Commission to testify on the European Union's 
partnership with the United States in the field of aviation security, 
with the shared and joint objective to keep flying secure.
    In a period of less than a year, the international civil aviation 
community has been challenged by two well-planned terrorist attempts 
against air transport. These attempts would have caused significant 
loss of human life had their execution not been disrupted or discovered 
in time.
    I am talking of course about the attempted sabotage of Northwest 
Airlines flight 253 on Christmas day 2009 and about the attempts at 
sabotaging aircraft on 29 October 2010 using improvised explosive 
devices concealed in air cargo originating from Yemen.
    The first attempt was foiled due to the poor execution of the plan 
and the intervention of passengers on the flight. The second attempt 
was thwarted by intelligence.
    When our aviation security measures are challenged and come so 
close to being circumvented by terrorists, we must ask ourselves the 
questions: Are there still weaknesses in our system? And what can we do 
better to make our system more robust?
    We know that the nature of the terrorist threat is innovative and 
evolving. We also know that aviation remains a target for terrorists, 
and that aviation security measures must respond, and ideally, pre-
empt, that phenomenon, difficult as it may be to do.
    We, as regulators, have a duty towards the travelling public to 
demonstrate that we are doing everything in our power to stay one step 
ahead of the terrorists and that we can defend our air transport 
system. If the threat is evolving, we too must evolve.
    This must always be done in a way which allows aviation to develop 
further in a healthy and economically viable way. Otherwise, the 
terrorists have already won.
    Only in so doing so, will we be able to deliver our respective 
constituencies a right that is fundamental to the functioning of our 
economies and communities: The freedom to fly.
    We strongly believe, in the European Union, that we share a common 
agenda for aviation security with the United States, and that we should 
pursue that agenda in tandem, to combine and reinforce each other's 
action.
    Thanks to our respective efforts since 9/11, we have succeeded in 
protecting our aviation system from several attempted acts of sabotage. 
However, a lot of work remains to be done, and here I turn to the EU's 
relations internationally with the rest of the world, and bilaterally 
with the United States.
    The International Civil Aviation Organisation, ICAO, must be the 
driver for the overall policy to ensure proper buy-in internationally. 
ICAO must ensure the effectiveness of the global aviation security 
regime, both in terms of its design and its implementation. The 
European Union and the United States cannot relax their efforts in 
assisting ICAO to see that this is done. Our work together is 
absolutely necessary. But it is clearly not going to be sufficient.
    ICAO has already played an instrumental role in reinforcing 
aviation security worldwide and must continue doing so in the future. 
The next ICAO triennial period should be guided by the outcome of last 
year's ICAO Assembly session whose conclusions were highly relevant to 
the challenges the air transport industry is facing.
    The historic adoption of the ICAO Declaration on Aviation Security 
by the Assembly confirms our joint priorities for future work on 
protecting air transport. The ICAO Comprehensive Aviation Security 
Strategy serves to drive that process by bringing forward concrete 
policy. The European Union is committed to play its part in this work.
    Let me turn to our most immediate priority for international 
cooperation. There is considerable concern among politicians in Europe 
about the security of flights coming into the European Union since last 
year's incidents concerning improvised explosive devices in air cargo 
originating in Yemen. The European Union demonstrated its commitment to 
international cooperation in this field through the adoption by E.U. 
Ministers of an Action Plan on Strengthening Air Cargo Security last 
December.
    The Action Plan serves as the European Union's response to the 
Yemen incidents. It encapsulates a number of measures aimed at 
reinforcing the air cargo supply chain both within the European Union 
and beyond. It tackles three areas: First, rapid exchange of 
information on new threats and on emergency measures taken to counter 
those threats, and development of a common E.U. risk assessment 
capability; second, new cargo security rules for the European Union; 
and third, international co-operation. This third part recognises that 
cargo and mail is, by its nature, a global business and so the cargo 
security regime must be approached as a global challenge if global 
trade is to be facilitated. As such, there are strong expectations in 
Europe that ICAO must set a high baseline level of security and must 
ensure it is implemented. We also support Secretary Napolitano's call 
to improve global supply chain security as a means of reinforcing our 
air cargo regimes and, like the United States, are examining how 
existing customs systems can be adapted to become a powerful instrument 
for air cargo security.
    So, first, we will work with ICAO, through the newly established 
Working Group on Air Cargo Security, to prepare new ICAO Standards and 
Recommended Practices on air cargo security. It must be borne in mind 
that developing tomorrow's aviation security regime is a joint effort 
and as such, our respective approaches, should be as compatible as 
possible. Where the United States and European Union agree on certain 
standards, those standards have a good chance of becoming global 
standards. That way, we help the aviation industry and its essential 
clients--in particular the air cargo industry--to meet high security 
standards in a way which least hampers trade. If we set different 
standards, we do not achieve higher security, but probably higher costs 
and greater difficulty to ensure proper compliance. We have offered our 
TSA counterparts to prepare new rules for air cargo security jointly, 
including the definition of high-risk cargo, screening methods, and 
international supply chain security.
    Second, proper implementation of global standards for aviation 
security is just as important. This leads me to the topic of capacity 
building. Non-implementation of ICAO Annex 17 Standards and Recommended 
Practices in some ICAO Member States can expose the entire air 
transport system to attack. To counter that scenario, capacity building 
can play an important role.
    Capacity-building activities are essential for delivering uniform 
implementation of international standards across the globe. Such 
activities are best focused on areas identified through the results of 
ICAO's Universal Security Audit Programme (USAP). Those audit results 
can help to show where support is most needed, in particular in 
tackling Significant Security Concerns exposed in ICAO Member States. 
The European Union is in favour of greater transparency of ICAO audit 
results, notably where Significant Security Concerns are identified.
    Information sharing could be facilitated by ICAO Member States 
providing information on their capacity-building activities to ICAO. 
This way, better coordination of such activities can take place in 
order to ensure maximum effectiveness. This will also ensure that there 
is no duplication of effort and that complementary activities can be 
implemented for the overall good of the whole aviation security system.
    Bilaterally, the U.S.-E.U. Air Transport Agreement has opened great 
opportunities for further work on aviation security between the 
European Union and the United States. The legal basis established by 
Article 9 on Security of the Air Transport Agreement attests to--and I 
quote--``the importance of working towards compatible practices and 
standards as a means of enhancing air transport security and minimising 
regulatory divergence.''
    We feel it is worth investing in this work because together we 
account for almost 50% of global air traffic. One in five passengers 
coming into the United States departs from Europe; and vice versa. This 
represents almost 50 million passengers.
    Furthermore, we feel it is justified to invest in this work because 
our societies possess amongst the most sophisticated aviation security 
regimes in the world. We should capitalise on that fact.
    At a high level, the European Union and the United States have been 
heavily engaged with each other, especially since the Northwest 
Airlines and Yemen incidents. Vice-President of the Commission, 
responsible for Mobility and Transport, Mr. Siim Kallas, and Secretary 
Napolitano are meeting regularly to discuss the shared challenges and 
agree the overall direction of our efforts to address them, and they 
meet again on 11 April in Washington.
    These more recent contacts are complemented by a solid history of 
working together for many years on aviation security issues through the 
long-established forum of the E.U.-U.S. Transportation Security 
Cooperation Group. That Group meets periodically to discuss the 
challenges of the day, exchange information on new security methods and 
technologies, and to co-ordinate international work, especially vis-a-
vis the International Civil Aviation Organisation.
    Furthermore, the group of like-minded so-called Quad members--that 
is Australia, Canada, the European Commission, and the United States--
also work together to co-ordinate their positions and to drive the 
agenda internationally. A recent example of such co-operation is the 
joint position on future work for air cargo security presented with the 
support of the Quad members to the ICAO Aviation Security Panel at its 
meeting last month in Montreal at ICAO headquarters.
    Against this background, the most recent U.S. Emergency Amendment 
on cargo and mail came as something of a surprise to the European Union 
and our aviation industry. The new requirements had not been discussed 
before, and did not take into account the existing measures in the 
European Union which already achieve the same security outcomes, or new 
rules which are currently being developed in the European Union and 
should be ready for adoption before the summer. That represents an 
opportunity missed to work out new rules on air cargo and mail security 
together. However, it is still not too late to do so, and we do hope 
that the United States will engage fully with the European Union on 
designing compatible rules. We are each other's biggest partners in 
terms of air freight; 2 million metric tonnes being transported 
annually between the European Union and the United States.
    The European Union believes that much more can be achieved through 
our cooperation efforts, and that we can have a much stronger impact on 
the ground. We should aim for better security that avoids the 
duplication of controls where our aviation security systems are 
equivalent, by mutually recognising each other's security controls 
wherever possible. We should do this not only to facilitate the 
travelling public, but to allow security staff to focus on real, 
unchecked threats and to free up limited aviation security resources 
for use elsewhere in the system to make air transport more secure. The 
European Union has pushed for this approach for some time now. It is a 
clear objective of the U.S.-E.U. Air Transport Agreement to which we 
are both committed. We feel this is a better approach than to impose 
unilateral measures on each other in relation to incoming flights.
    Finally, within the European Union, we have developed common 
security rules and procedures which are applicable and enforced in a 
uniform manner in 30 European countries (including non-E.U. countries 
Iceland, Norway, and Switzerland) accounting for over 500 million 
European citizens. That means, when travelling within these European 
countries, re-screening is not necessary on transfer by virtue of the 
security controls being applied once at the point of departure for the 
entire length of the journey. We term this concept ``One Stop 
Security.''
    We are now looking to conclude agreements with our key 
international partners which have equivalent standards of aviation 
security. Indeed, such efforts have also been made vis-a-vis the United 
States. We are currently engaged in setting up One Stop Security 
arrangements to allow passengers arriving on flights from America into 
Europe to transfer onto connecting flights without needing to re-screen 
them or their baggage. E.U. law allows for including the United States 
in its One Stop Security system, and we do hope that U.S. law will make 
room for the European Union!
    The reality is that we should treat each other as equal partners in 
aviation security. The European Union, in the eyes of the United 
States, should not be grouped into the same basket as the rest of the 
world. The European Union has a robust tried and tested aviation 
security regime, the merits of which we can, and we do, share with our 
counterparts in the U.S. administration. The E.U. rules are well-
enforced owing to a strong system of oversight both at E.U. and E.U. 
Member State level, in which TSA officials are regularly invited to 
take part.
    That exchange of information, that understanding of each other's 
systems, should foster acceptability and trust of each other's systems. 
As such, the European Union would greatly appreciate working together 
more closely with the United States to define the aviation security 
standards that are applied across the trans-Atlantic market and beyond.
    In the domain of cargo security and with respect to our respective 
efforts to counter a Yemen-style attack, we do have an opportunity to 
make headway here. The aim would be to do replace unilateral measures, 
such as U.S. Emergency Measures, with mutually acceptable security 
solutions for air cargo security which are implemented on flights 
leaving our respective territories.
    ``Strengthening international cooperation in aviation security'' 
should not simply be about dialogue, it should be about action. And in 
that respect, we urge the United States to engage with the European 
Union to deliver common solutions to our common challenges.
    To conclude, honourable Representatives of the House, it is 
important to underline that the security of international civil 
aviation is a joint responsibility. As such the European Union shall 
continue to engage fully with the United States, with ICAO, and with 
other key international partners in addressing the threat to civil 
aviation, both from the rules-based and the capacity building 
perspectives.
    Thank you for providing this opportunity to the European Commission 
to participate in this very important discussion.

    Mr. Rogers. Thank you, Mr. Cornelis.
    The Chairman now recognizes Mr. Rafi Ron for his testimony.

  STATEMENT OF RAFI RON, PRESIDENT, NEW AGE SECURITY SOLUTIONS

    Mr. Ron. Good morning, Mr. Chairman and Members of the 
subcommittee. First, let me thank the committee for inviting me 
to testify about international cooperation issues surrounding 
aviation security.
    I am Rafi Ron, president of New Age Security Solutions, a 
transportation security consulting firm based in Dulles, 
Virginia. The company was established in the wake of the 9/11 
disaster to provide more effective security solutions to 
airports, Government agencies, and private transportation 
companies. Over the last 9 years, we have supported numerous 
projects in the United States and abroad, involving airport, 
seaport, and ground transportation.
    Prior to founding New Age Security Solutions, I served as 
director of security at Tel-Aviv Ben-Gurion International 
Airport for a period of 5 years. In this position, I was 
responsible for all aspects of security operation and 
coordination with my counterparts at airports around the world. 
My previous experience included more than 30 years in the field 
of security, intelligence, and counterterrorism for the 
government of Israel.
    Since the 9/11 attack, aviation security has received a 
great deal of attention, and enormous resources have been 
dedicated to improve the system. During the last 9 years, the 
United States has become the driving force in making domestic 
and global aviation systems safer. Unquestionably, American 
aviation has become a harder target as a result of that for 
terrorists to hit. Yet, there are still many vulnerabilities 
that require our attention. The question, however, is: What 
investments in international cooperation will pay the highest 
dividend in increasing security?
    I would like to focus on three areas that need attention. 
The first one is the potential of uniform minimum security 
standards at airports, which is very much what was discussed 
earlier in more details, or, in other words, the harmonization 
of standards on a global basis. The second subject is the 
challenge in effectively sharing terrorism information with 
foreign countries. The third one is the role of professional 
and financial support in helping certain countries to upgrade 
their security--aviation security.
    As far as the uniform standards, or a harmonization, it was 
already recognized way back in the 1940s with the ICAO, the 
Annex 17 document, that there is a need to harmonize and to 
create global standards for aviation security, for a variety of 
reasons, some of which I will go into in the next couple of 
minutes.
    Annex 17, titled, ``Safeguarding International Civil 
Aviation Against Acts of Unlawful Interference,'' it was 
updated shortly after 9/11 with the help of an international 
working group representing a cross-section of stakeholders, and 
I had the honor to be one of the participants in this group.
    ICAO Annex 17 is the only document today that establishes 
global standards for aviation security. Since the annex is 
based on the consensus of all ICAO member-states, it 
establishes a relatively low standard that can be achieved by 
countries with limited technological infrastructure and few 
traditions supporting public order and law enforcement.
    During the last few years, ICAO has implemented an 
aggressive auditing program in various parts of the world to 
help member-states to meet Annex 17 requirements. Despite the 
relatively low threshold, many countries still find it 
difficult to meet the standards, and fail the audits.
    The ICAO standards were found not sufficient by some of the 
countries, mostly in the developed world. Both the United 
States and Europe has issued their own standards and a 
regulatory framework. The European and the American system are 
based on the same concept of operation but differ in some of 
the actual requirements.
    For example, as it was mentioned before here today, the 
European Union recognizes advanced X-ray technology screening 
as the standard for its bags, while the United States has 
raised the threshold to computerized tomography, which has a 
greater probability of detection.
    In contrast, Europe requires 100 percent employee screening 
and a vehicle search before personnel can enter the security 
sterile zones; yet, American airports are not required to do 
any employee screening, and there are no consistent vehicle 
search protocols.
    The goal of achieving a global one-stop security zone 
throughout the aviation system that minimizes the rescreening 
of travelers on the one hand and provides adequate airport 
security on the other still seems to be very far off, if not 
unrealistic. As long as there are countries that support 
terrorism and countries that have difficulty in maintaining 
minimum performance standards, we will not reach this goal.
    What can be attained appears most likely when based on 
bilateral agreements with friendly, trustworthy countries. 
Through them, we can reduce costs, ease operational delays, 
and, above all, increase the quality of security among partner 
countries. The on-going dialogue between TSA and our foreign 
partners is promising, but, with differing standards, even 
bilateral negotiations are unlikely to create a true one-stop 
security zone without action by the Congress and the 
legislative bodies in the partner countries.
    The second issue is the issue of sharing intelligence 
information, the inability to readily share information and 
intelligence data across national boundaries. Intelligence data 
is, by nature, an extremely sensitive national asset, and most 
countries are very reluctant to share it.
    Yet, the need to share information has proven to be 
critically important more than once in recent years. The latest 
example is the attempt against FedEx and UPS cargo flights last 
year. It took intelligence sharing and cooperation between 
Saudi Arabia, the United States, the United Kingdom, Yemen, and 
Dubai to uncover the plot and stop the explosive devices from 
reaching U.S. territory.
    In sharing intelligence data, the highest-value information 
is both specific and actionable. It is a critical layer in the 
U.S. aviation security system, but we cannot assume that 
specific intelligence information will be available whenever 
someone plans a terrorist act against us. Indeed, all the 
attacks carried out against the United States on 9/11 and after 
lacked that specific warning.
    We have learned that our best early indicators of terrorism 
are typically revealed from regular access to information about 
passengers and cargo. In order to implement an effective risk 
assessment for inbound passengers and cargo, we need to have 
baseline access to local terrorist watch lists, criminal 
history, et cetera.
    At this time, passenger risk assessments are implemented in 
a limited way through the Secure program and bilateral 
agreements, especially with the European Union. Better----
    Mr. Rogers. Excuse me, Mr. Ron. If you have been hearing 
the bells, we have been called for votes. I want to try to get 
a summary of Mr. Marriott's testimony before we recess to go 
over there. Then we will pick back up on questions of that.
    Mr. Ron. Thank you very much.
    [The statement of Mr. Ron follows:]

                     Prepared Statement of Rafi Ron
                             April 7, 2011

    Good morning, Mr. Chairman and Members of the subcommittee. First, 
let me thank the committee for inviting me to testify about the 
international cooperation issues surrounding aviation security.
    I am Rafi Ron, President of New Age Security Solutions, a 
Transportation Security Consulting firm based in Dulles, VA. The 
company was established in the wake of the 9/11 disaster to provide 
more effective security solutions to airports, Government agencies, and 
private transportation companies. Over the last 9 years, we have 
supported numerous projects in the United States and abroad involving 
airports, seaports, and ground transportation.
    Prior to founding NASS, I served as Director of Security at Tel-
Aviv Ben-Gurion International Airport for a period of 5 years. In this 
position I was responsible for all aspects of the security operation 
and coordinating with my counterparts at airports around the world. My 
previous experience included more than 30 years in the field of 
security, intelligence, and counterterrorism for the government of 
Israel.
    New Age Security Solutions maintains an on-going relationship with 
its clients to help them adapt as the international picture evolves. As 
part of our continuous working relationship, we recently conducted a 
progress audit on our first project involving Logan Airport in Boston, 
Massachusetts. As you may recall, two of the 
9/11 planes originated at Logan Airport. The Massachusetts Port 
Authority (Massport), responsible for Logan Airport, was determined to 
significantly improve the airport component of aviation security.
    In the fall of 2001 we helped them develop and implement new 
security policies and elevate protection at Logan airport. A key 
strategy was the implementation of a behavior pattern recognition 
program (first of its kind in the United States) that trains personnel 
to spot aberrant activities by terrorists, independent of the specific 
international threat. Massport has since taken a lead role in 
developing the next level of airport security. Logan Airport's 
achievements are widely recognized today by the Federal Government as 
well as by the aviation industry.
    Transportation in general and aviation in particular, have become 
high-priority targets for international terrorist organizations. 
Consequently, it is clear that the solutions must also be international 
in scope. Transportation systems constitute a critical infrastructure 
without which our modern industrial societies cannot function. Every 
indication is that these systems will remain high-risk venues for the 
foreseeable future. Unfortunately, key links in our transportation 
systems remain vulnerable to attack. Potential damages include not only 
a large number of casualties but also significant residual delays with 
major economic and political repercussions. Few other systems carry a 
higher level of vulnerability, with so many potential targets for 
terrorists who seek to act against the interests of the United States.
    Since the 9/11 attacks, aviation security has received a great deal 
of attention and enormous resources have been dedicated to improving 
the system. During the last 9 years, the United States has become the 
driving force in making the domestic and global aviation system safer. 
Unquestionably, American aviation has become a harder target for 
terrorists to hit. Yet, there are still many vulnerabilities that 
require our attention. The question, however, is: ``What investments in 
international cooperation will pay the highest dividends in increased 
security?''
    I would like to focus on three areas that need attention:
  <bullet> The potential for uniform minimum security standards at 
        airports worldwide;
  <bullet> The challenges in effectively sharing terrorism information 
        with foreign countries; and
  <bullet> The role professional and financial support plays in helping 
        certain countries upgrade their aviation security.

                           UNIFORM STANDARDS

    Since the late 1940s the international community has recognized 
that cooperation and standardization were needed to foster an effective 
global aviation industry. The International Civil Aviation Organization 
(ICAO), a U.N. agency, was formed to insure that the global aviation 
system is coordinated and regulated to create a safe and secure 
industry. As of today 189 states are ICAO member states. Since the 
initial treaty (Chicago Convention 1947), 18 separate annexes have been 
adopted.
    Annex 17 is titled ``Security: Safeguarding International Civil 
Aviation Against Acts of Unlawful Interference.'' It was updated 
shortly after 9/11 with the help of an international working group 
representing a cross-section of stakeholders. I was honored to be among 
the participants. ICAO annex 17 is the only document today that 
establishes global standards for aviation security. Since the annex is 
based on the consensus of all ICAO member states, it establishes fairly 
low standard that can be achieved by countries with a limited 
technological infrastructure and few tradition supporting public order 
and law enforcement.
    During the last few years, ICAO has implemented an auditing program 
in various parts of the world to help member states meet the Annex 17 
requirements. Despite the low threshold, many countries still find it 
difficult to meet the standards and regularly fail the audits.
    The ICAO standards were found inadequate by most of the developed 
world. Both the United States and the European Union (EU) have issued 
their own standards and regulatory frameworks. The European and the 
American systems are based on the same principals but defer 
substantially in some of the actual requirements. For example, the 
European Union recognize Advanced X-ray (AT) screening as the standard 
for all bags, while the United States has raised the threshold to 
Computerized Tomography (CT) which has a greater probability of 
detection. In practical terms that means a bag that was screened in 
Europe must be rescreened before entering the U.S. system. In contrast, 
Europe requires 100% employee screening and vehicle search before 
personnel can enter security ``sterile'' zones, yet American airports 
are not required to do any employee screening and there is no 
consistent vehicle search protocols.
    The goal of achieving a global ``one stop security zone'' 
throughout the aviation system that minimizes the rescreening of 
travelers on the one hand and provides adequate airport security on the 
other, still seems very far off--if not unrealistic. As long as there 
are countries that support terrorism and countries that have difficulty 
maintaining minimum performance standards, we will never reach the 
goal.
    What can be attained appears most likely when based on bilateral 
agreements with friendly trustworthy countries. Through them we can 
reduce cost, ease operational delays and above all increase the quality 
of security among partner countries. The on-going dialogue between TSA 
and our foreign partners is promising. But with differing standards, 
even bilateral negotiations are unlikely to create a true ``one stop 
security zone'' without action by the Congress and legislative bodies 
in partner countries.

                    SHARING INTELLIGENCE INFORMATION

    The second issue, is the inability to readily share intelligence 
data across national boundaries. Intelligence data is by nature an 
extremely sensitive national asset and most countries are very 
reluctant to share it. Yet, the need to share information has proven to 
be critically important more than once in recent years. The latest 
example is the attempt against FedEx and UPS cargo flights last year. 
It took intelligence sharing and coordination between Saudi Arabia, the 
United States, the United Kingdom, Yemen, and Dubai to uncover the plot 
and stop the explosive devices before reaching U.S. territory.
    In sharing intelligence data, the highest value information is both 
specific and actionable. It is a critical layer in the U.S. aviation 
security program. But we cannot assume that specific intelligence 
information will be available whenever someone plans a terrorist act. 
Indeed, all the attacks carried out against the United States on 9/11 
and after, lacked specific early warnings. We have learned that our 
best early indicators of a terrorism act are typically revealed from 
regular access to information about passengers and cargo. In order to 
implement an effective risk assessment for inbound passengers and cargo 
we need to have baselines and access to local terrorists watch lists, 
criminal history, etc. At this time, passenger risk assessments are 
implemented in a limited way through the ``Secure Flight'' program. 
Better access to local information will increase its effectiveness. 
Given the data currently available, it is important to note that 
relevant passenger data can be accessed without raising new privacy 
concerns if the program is designed correctly.
    The intelligence-sharing policy of most countries is bilateral in 
nature and goes well beyond aviation security issues. Proactive efforts 
by the U.S. intelligence community and the Department of Homeland 
Security have created relationships and infrastructure that have proven 
to be very effective on many occasions. Despite the sensitivity of the 
intelligence data, we have been fortunate that diverse governments have 
often been willing to share information when it comes to aviation 
security. However, the current unrest in Africa and the Middle East 
raises serious continuity questions for the future.

                          NON-SECURE COUNTRIES

    The third aspect of international cooperation I want to highlight 
is the role of the United States in supporting countries that are 
unable to construct and operate an acceptable standard of aviation 
security. The United States is already engaged in efforts to improve 
security resources in some parts of the world. This investment has 
historically paid very well in terms of elevating the global aviation 
security picture. It also lays the groundwork for better information 
sharing and proactive intelligence gathering. For better or worse, 
there is frequently a correlation between the countries that need help 
implementing better security protocols and the countries where 
terrorist are active. In this respect, TSA's efforts in Yemen should be 
complemented. Again, the instability in the region raises questions 
about future security risks.

                                SUMMARY

    Most of the terrorist activities against U.S. aviation originates 
abroad. Every day brings hundreds of flights into U.S. airports on 
foreign airlines. U.S. carriers also have hundreds of flights that 
originate every day from foreign airports. The issues are mirrored in 
many respects on the many air cargo flights that bring parcels from 
foreign locations. International cooperation and coordination play a 
critical role. Without a high level of cooperation our vulnerability 
increases substantially.
    Our efforts should focus on three dimensions of cooperation and 
coordination:
    a. Creation of bilateral ``one stop security zones'' with the 
        European Union and other trustworthy partner countries.
    b. Continue the proactive policy for generating and sharing 
        relevant intelligence with foreign countries.
    c. Increase the professional and financial support to countries 
        that are committed to upgrading their aviation security.
    Thank you for your consideration.

    Mr. Rogers. So, Mr. Marriott, I would like to recognize you 
for 5 minutes to summarize your testimony.

  STATEMENT OF JIM MARRIOTT, CHIEF, AVIATION SECURITY BRANCH, 
           INTERNATIONAL CIVIL AVIATION ORGANIZATION

    Mr. Marriott. Mr. Chairman, Members of the subcommittee, 
ladies and gentlemen, the International Civil Aviation 
Organization, ICAO, is very pleased to participate in today's 
hearing on strengthening international cooperation on aviation 
security. Thank you for this opportunity to provide an overview 
of ICAO's Aviation Security Program and international 
cooperation in the field of aviation security in the company of 
distinguished international partners.
    By way of background, ICAO was established by the 1944 
Convention on International Civil Aviation, also known as the 
Chicago Convention. ICAO is the specialized agency of the 
United Nations responsible for international civil aviation. As 
the global forum for cooperation among its 190 member-states 
and with the world aviation community, the organization set 
standards and recommended practices for the safe and orderly 
development of international civil aviation.
    In fulfilling its mission to foster a global civil aviation 
system that consistently and uniformly operates at peak 
efficiency and provides optimum safety, security, and 
sustainability, ICAO has established three strategic 
objectives: First, enhance global civil aviation safety; the 
second, enhance global civil aviation security; and, third, 
foster harmonized and economically viable development of 
international civil aviation that does not unduly harm the 
environment.
    Activities under ICAO's Aviation Security Program focus on: 
The development of international standards, recommended 
practices, and guidance material to establish a single 
international aviation security performance baseline; the 
conduct of audits of State aviation security and oversight 
systems to identify deficiencies and provide recommendations 
for their resolution; and assistance and capacity-building 
activities to further help States resolve deficiencies and in 
other ways strengthen their aviation security programs.
    The regime of international standards and recommended 
practices for aviation security is contained in Annex 17 to the 
Chicago Convention. The international regulatory framework, 
applicable to all member-states, sets out the accepted minimum 
level of aviation security and covers a wide range of matters, 
including allocation of responsibilities for aviation security, 
international cooperation, and air cargo security.
    Annex 17 was first adopted by ICAO in 1974. The 12th 
amendment of Annex 17 is on track to become applicable on the 
1st of July this year, with important new provisions to 
strengthen air cargo security and other areas of risk.
    ICAO's Universal Security Audit Program provides for 
regular, mandatory, systematic, and harmonized audits of the 
aviation security and oversight systems in all ICAO member-
states. The audit program was launched in November 2002 as a 
key outcome of the High-Level Ministerial Conference on 
Aviation Security convened by ICAO in the aftermath of the 
tragic events of 9/11.
    ICAO recognizes that aviation security cannot be successful 
without implementation. This is why an increasing measure of 
ICAO's resources is being directed to a range of assistance and 
capacity-building activities throughout the world. These 
include the global network of 20 ICAO-endorsed aviation 
security training centers; direct in-country assistance to 
States to help them address deficiencies; assistance to 
regional organizations to establish priorities and action plans 
for aviation security enhancement; and collaboration with other 
international organizations, like the United Nations, the 
Organization of American States, and the Organization for 
Security and Cooperation in Europe, to leverage resources to 
enhance aviation security.
    The common thread through all of ICAO's aviation security 
activities is international cooperation. In the aftermath of 
the attempted bombing of Northwest Airlines Flight 253 on the 
25th of December, 2009, ICAO convened a series of regional 
conferences on aviation security. These events culminated in 
the unanimous adoption of a Declaration on Aviation Security by 
the 37th Session of the ICAO Assembly last October.
    The declaration urges ICAO member-states to enhance 
international cooperation to counter threats to civil aviation 
in nine areas, including: Strengthening security screening 
procedures, strengthened and harmonized measures and best 
practices for air cargo security, and provision of technical 
assistance to states in need.
    ICAO was very pleased by President Obama's statement on the 
9th of October commending ICAO for adopting the declaration and 
for noting ``the extraordinary global collaboration . . . to 
bring about a truly 21st-century aviation security framework 
that will make air travel safer and more secure than ever 
before.''
    There is obviously much more work to be done. ICAO is 
leading a second round of regional conferences, this time 
focused on implementation of the declaration.
    ICAO's successes in leading international civil aviation 
security enhancements are due in large part to the partnerships 
it enjoys with member-states, other international and regional 
organizations, and industry. Of course, among these is the 
strong relationship ICAO has with the United States and the 
TSA.
    ICAO and international civil aviation security continue to 
benefit from U.S. leadership and cooperation in many ways: 
Invaluable support through the sharing of technical information 
and expertise; the voluntary contribution of financial and in-
kind resources used to supplement ICAO's own capacity, thereby 
extending our reach and impact; support of consensus-building 
and excellence in international policy development; and 
concrete projects to assist States to strengthen their aviation 
security programs. ICAO looks forward to further deepening and 
strengthening this important and timely relationship.
    Thank you.
    [The statement of Mr. Marriott follows:]

                   Prepared Statement of Jim Marriott
                              7 April 2011

    Mr. Chairman, Members of the subcommittee, ladies and gentlemen, 
the International Civil Aviation Organization, ICAO, is very pleased to 
participate in today's hearing on ``Strengthening International 
Cooperation on Aviation Security''. Thank you for this opportunity to 
provide an overview of ICAO's Aviation Security Programme and 
international cooperation in the field of aviation security in the 
company of distinguished international partners.
    By way of background, ICAO was established by the 1944 Convention 
on International Civil Aviation, also known as the Chicago Convention. 
ICAO is the specialized agency of the United Nations responsible for 
international civil aviation. As the global forum for cooperation among 
its 190 Member States and with the world aviation community, the 
organization sets standards and recommended practices for the safe and 
orderly development of international civil aviation. In fulfilling its 
mission to foster a global civil aviation system that consistently and 
uniformly operates at peak efficiency and provides optimum safety, 
security, and sustainability, ICAO has established three Strategic 
Objectives:
    1. Enhance global civil aviation safety;
    2. Enhance global civil aviation security; and
    3. Foster harmonized and economically viable development of 
        international civil aviation that does not unduly harm the 
        environment.
    Activities under ICAO's Aviation Security Programme focus on: The 
development of international Standards, Recommended Practices and 
guidance material to establish a single international aviation security 
performance baseline; the conduct of audits of State aviation security 
and oversight systems to identify deficiencies and provide 
recommendations for their resolution; and assistance and capacity-
building activities to further help States resolve deficiencies and in 
other ways strengthen their aviation security programmes.
    The regime of international Standards and Recommended Practices for 
aviation security is contained in Annex 17 to the Chicago Convention. 
This international regulatory framework, applicable to all Member 
States, sets out the accepted minimum level of aviation security, and 
covers such matters as the objectives of aviation security, allocation 
of responsibilities for aviation security, international cooperation, 
quality control, access control, aircraft security, passenger and 
baggage security, cargo security and the management of acts of unlawful 
interference. Annex 17 was first adopted by the ICAO Council in 1974. 
The twelfth amendment of Annex 17 is on track to become applicable on 1 
July 2011, with important new provisions to strengthen air cargo 
security and other areas of risk.
    ICAO's Universal Security Audit Programme provides for regular, 
mandatory, systematic and harmonized audits of the aviation security 
and oversight systems in all ICAO Member States. The Audit Programme 
was launched in November 2002, as a key outcome of the High-level, 
Ministerial Conference on Aviation Security convened by ICAO in the 
aftermath of the tragic events of 9/11. The first cycle of the 
Programme was designed to determine the degree of compliance of a State 
in implementing Annex 17 Standards. The audits also assessed the 
sustainability of each States aviation security system through the 
establishment of appropriate legislation, National policies, and an 
appropriate aviation security authority provided with inspection and 
enforcement capabilities. Currently in its second cycle, the Audit 
Programme now focuses on the critical elements of States' aviation 
security oversight systems.
    ICAO recognizes that aviation security cannot be successful without 
implementation. This is why an increasing measure of ICAO's resources 
is being directed to a range of assistance and capacity-building 
activities throughout the world. These include:
    1. A global network of 20 ICAO-endorsed Aviation Security Training 
        Centres--centres of excellence for training aviation security 
        professionals on a number of key topics;
    2. Direct, in-country assistance to States to help them address 
        deficiencies;
    3. Assistance to regional organizations to establish priorities and 
        action plans for aviation security enhancement; and
    4. Collaboration with other international organizations, like the 
        United Nations, the Organization of American States and the 
        Organization for Security and Co-operation in Europe, to 
        leverage resources to enhance aviation security.
    The common thread through all of ICAO's aviation security 
activities is international cooperation. In the aftermath of the 
attempted bombing of Northwest Airlines flight 253 on 25 December 2009, 
ICAO convened a series of regional aviation security conferences in 
Mexico City, Abuja, Tokyo, and Abu Dhabi to build consensus on the 
priorities for further aviation security enhancement. These events 
culminated in the unanimous adoption of a Declaration on Aviation 
Security by the 37th Session of the ICAO Assembly in October 2010.
    The Declaration urges ICAO Member States to enhance international 
cooperation to counter threats to civil aviation in nine areas, 
including strengthening security screening procedures, strengthened and 
harmonized measures and best practices for air cargo security, and the 
provision of technical assistance to States in need. ICAO was very 
pleased by President Obama's statement on 9 October 2010 commending 
ICAO for adopting the Declaration and for noting ``The extraordinary 
global collaboration . . . to bring about a truly 21st century 
international aviation security framework that will make air travel 
safer and more secure than ever before.''
    There is obviously much more work to be done. ICAO is leading a 
second round of regional conferences, this time focused on 
implementation of the Declaration. The first of these was held in New 
Delhi in February and resulted in 14 ICAO Member States in that region 
adopting a roadmap of specific actions to further strengthen aviation 
security. Building on this success, similar conferences are being 
planned by ICAO and host States for this year in other Regions.
    ICAO's successes in leading international civil aviation security 
enhancements are due in large part to the partnerships it enjoys with 
Member States, other international and regional organizations, and 
industry. Among these is the strong relationship ICAO has with the 
United States and the Transportation Security Administration.
    ICAO and international civil aviation security continue to benefit 
from U.S. leadership and cooperation in many ways: Invaluable support 
through the sharing of technical information and experience; the 
voluntary contribution of financial and in-kind resources used to 
supplement ICAO's own capacity, thereby extending our reach and impact; 
support of consensus-building and excellence in international policy 
development; and concrete projects to assist States in need to 
strengthen their aviation security programmes. ICAO looks forward to 
further deepening and strengthening this important and timely 
relationship.
    Thank you.

    Mr. Rogers. Thank you.
    Thank all three of you for that well-thought-out and well-
prepared testimony.
    As I was telling you earlier, we have been called for 
votes. So, without objection, we are going to recess so that 
Members can vote. We will be back 5 minutes after the last 
vote, which will be about 30 minutes from now.
    So thank you for your patience, and we are in recess.
    [Recess.]
    Mr. Rogers. Ms. Jackson Lee is close and has indicated that 
it is okay for us to proceed.
    First, and this is really skinning my ignorance, Mr. 
Marriott, but where did the term ``Annex 17'' come from? Is 
this a location where you all were meeting or what? Or is that 
top secret?
    Mr. Marriott. No, it is certainly not top secret, sir.
    The Chicago Convention, the International Convention on 
Civil Aviation, is an international treaty, not unlike a 
state's national legislation. Among other things, it is the 
founding treaty of the ICAO.
    Appended to the convention is a series of annexes dealing 
with different technical disciplines within the aviation world. 
So there is one on aerodromes, there is one on licensing of 
personnel, airworthiness of aircraft, dangerous goods. It 
happens that there is one on security, as well. Annex 17 is the 
17th----
    Mr. Rogers [continuing]. I see.
    Mr. Marriott [continuing]. In the order of their 
production.
    Mr. Rogers. Great. Thank you.
    Mr. Ron, one thing that I was struck by in your testimony 
was you made the statement, ``Europe requires 100 percent 
employee screening and vehicle search before personnel can 
enter the security sterile zones; yet, American airports are 
not required to do any employee screening, and there are no 
consistent vehicle searches.''
    I thought that we did. Does the United States not screen 
those personnel?
    Mr. Ron. As far as my knowledge goes, and I am basing that 
on my observation in the airports, in the field here in the 
United States employee screening is not being implemented 
beyond random at American airports today. The level of 
consistency in vehicle search is also lacking.
    Mr. Rogers. Thanks. Well, I am glad to hear that. I will 
definitely follow up with our local folks about that.
    Mr. Cornelis, what do you consider the biggest obstacle in 
achieving international harmonization of aviation security 
standards? How are we currently doing on that front?
    Mr. Cornelis. Well, I would say there are two levels. There 
is the global level, and there we have ICAO, which is an 
international treaty-based organization. Although they do 
excellent work, of course, the pace of the work is not as fast 
as we can have in our own jurisdictions. So there is a 
challenge there for us, those of us who want to push forward 
the standards at a global level, to keep pushing and to help 
ICAO to achieve that.
    In terms of our bilateral relationship with the United 
States, there are a lot of good ideas out there, but I think we 
need to find a way of coming to practical results on one-stop 
security and mutual recognition. I am not sure where the 
obstacles really are. Sometimes legal restrictions are cited to 
us as obstacles. But this is something where the ideas are 
there but the actual results need to come still.
    Mr. Rogers. Okay. But you don't know if there are legal 
obstacles or just cultural or what?
    I mean, because the fact is, you know, we have wonderful 
relations with the European Union. It seems to me that if there 
is anybody we can make it work with, it is the European Union. 
So if there is an obstacle that we can be of assistance in 
removing from your way, you know, that is what I am looking 
for. It may not be something that you can quantify for me 
today. But just be aware, we want to be helpful.
    Let me ask, what are some key provisions of the agreement 
that the European Union wants to renegotiate and why?
    Mr. Cornelis. Well, we have the U.S.-E.U. Air Transport 
Agreement, which has a whole article on aviation security, 
which, for us, is fine. That is all we need, in terms of treaty 
provisions, to work together. It has the right provisions of 
working toward removing regulatory divergence and so on, being 
involved in each other's oversight and being able to do 
assessments in each other's territory.
    So it is all there, but I think we need to invest a little 
bit more into putting meat on those bones, in terms of having 
that mutual recognition.
    Mr. Rogers. What about the PNR agreement?
    Mr. Cornelis. PNR agreement, unfortunately, Chairman, is 
not something that is dealt with in my department, so I 
hesitate to get into details there. But we are always ready to 
answer in writing if you have specific questions on PNR.
    Mr. Rogers. Yeah. Well, you know, we just find it to be 
such a valuable tool in our screening process that we want to 
make sure that it stays something that is available to us.
    What about you, Mr. Marriott, what would you say are any 
major obstacles that you would find that we need to try to 
remove?
    Mr. Marriott. Obstacles in terms of harmonization?
    Mr. Rogers. Harmonization, yes, sir.
    Mr. Marriott. I think, first, it is important to put it in 
context, that there is a high degree of harmonization now in 
aviation security. That has come about as a product of 
extensive international cooperation over many, many, many 
years.
    But it is true to say that there are differences, there are 
important differences, in the way in which aviation security is 
delivered in different jurisdictions. For airlines crossing 
boundaries, international boundaries, they certainly encounter, 
as do passengers, differences in the way security looks and 
feels.
    I have been in this business for a long time. I think one 
of the key ingredients of seeking harmonization is to have a 
high level of mutual trust and respect between the partners in 
a negotiation and a sound process to begin and to conclude a 
dialogue toward harmonization, one that is open and one that 
fairly recognizes different approaches for dealing with 
security threats.
    Mr. Rogers. Okay.
    Mr. Ron, do you think the European Union's decision to 
partially lift the restriction on liquids and gels will inhibit 
a one-stop security zone from being established?
    Mr. Ron. I think that the liquid and gel, the example 
exhibits some of the main problems in reaching agreements, 
because I think that the various countries have different 
levels of interest in this issue.
    Obviously, Europe has the strongest and the highest level 
of interest because of the fact that most European airports, 
the large airports, are hubs for international flights, and 
there is a lot of tax-free activity, commercial activity at 
these airports that is based on the idea that people can 
actually carry liquid and gels with them, and a lot of losses 
have been triggered by the procedures.
    America is less influenced by that, obviously, first of all 
because tax-free shopping is not a major commercial industry in 
the United States compared to Europe; and, second, because all 
travelers into the United States are required to go through 
Customs and Immigration upon arrival at their first airport. 
Therefore, the problem doesn't exist, and they can place their 
liquid and gels in their bags.
    The fact that we are now, if I am not mistaken, over 4 
years since the issue of liquid and gels came about and that we 
do not have yet a fully accepted international standard in 
order to resolve the problem indicates some of the difficulties 
even with an issue that is simply a technical issue, more than 
anything else, and there have been various solutions offered 
for that.
    Mr. Rogers. Okay. Thank you very much.
    The Chairman now recognizes the Ranking Member for any 
questions she may have.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Thank you to all the panelists.
    Mr. Ron, you were in the middle of your testimony and you 
were making some comments, and the Chairman may have focused in 
on this, as well, is the different screening techniques with 
the United States and some concern that you had expressed.
    Could you expand on that, please?
    Mr. Ron. Yes. I think that the future of aviation security 
is very much based on the acceptance of the fact that security 
is not just about screening and about detecting forbidden 
items, but it is very much about our ability to process 
information that we have available to us in order to identify 
in advance when an attack is imminent, and not just based on a 
specific intelligence that has been generated by the 
intelligence community, per se.
    This could be clearly seen in the case of the cargo attacks 
of last year, when we had the difficulty to identify the 
presence of the explosive devices. Even after we had very 
specific information that identified the parcels, still the 
parcels went through screening in the United Kingdom without 
detecting the device. That indicates to the failure of the 
technology to provide us with a complete solution.
    But, at the same time, the manifest that accompanied those 
parcels contained enough information that allowed us to 
identify those parcels as parcels that required special 
attention from us. The fact that printers are being flown out 
of Yemen to the United States already doesn't make sense by 
itself, because probably the cost of shipping is greater than 
the cost of buying a new one over here. Secondly, the fact that 
those parcels were addressed to Jewish synagogues in Chicago 
made it even more obvious that there was something wrong about 
these parcels.
    But we did not have the system to respond or to detect that 
information in advance and point at those parcels as a source 
of risk. Because if we had one, we wouldn't need the specific 
intelligence that was acquired through the other channels of 
communication.
    In my view, the future of aviation security is very much 
based on our ability to gain access and to analyze this 
information. Here, I think that we are walking into an area 
where cooperation, international cooperation, becomes more 
difficult, because countries are reluctant to share the on-
going information beyond the specific intelligence, certainly 
about their own citizens, but even beyond that. This will 
require more attention in order to develop a solution that will 
increase the level of cooperation in sharing information and 
intelligence.
    Ms. Jackson Lee. Just pursue that line of thought. What 
would, then, be the solution? What is your solution? You said 
access to information, but expand on that just a little bit. In 
the future of aviation--and you make a very valid point, that 
when you become more intrusive into a country's system, they 
become less cooperative. Then what is the future of aviation 
security, moving beyond what we have today?
    Mr. Ron. I think that, at this point, we need to look at 
aviation security as a combination of information technology, 
some of which is intelligence and some of which is simply 
analyzing the information that is stored in databases that we 
have. We had the CAPPS program here in this country way back--
you know, the morning of 9/11, I want to remind the committee, 
the CAPPS II picked up 9 out of the 19 terrorists.
    Ms. Jackson Lee. The what picked up?
    Mr. Ron. The CAPPS program, C-A-P-P-S. That was a 
computerized program used by FAA at the time in order to detect 
high-risk passengers. The system picked up 9 out of the 19 
terrorists on that morning. But the problem was that we did not 
fully implement it, the consequences of such an identification, 
to a sufficient level that would allow us to stop the 
terrorists from continuing to the aircraft.
    Right now, if I have to look into the near future, I would 
say that these type of programs, in combination with the 
increased technological capability, can provide a much better 
solution than the one that we have right now that is very 
much--they are relying almost 100 percent on our ability to 
detect so-called bad items through the use of detection 
technology.
    Our detection technology is good, but not good enough. As I 
mentioned with the cargo attempted attack, it was not good 
enough to detect the bomb even when we knew where it was. So it 
certainly calls for our attention to support that with a good 
information analysis.
    Ms. Jackson Lee. Thank you.
    Mr. Marriott, we know that the international process for 
establishing aviation security standards is sometimes slow and 
cumbersome. My question then to you, are we making timely 
progress in establishing global aviation security standards? 
What can be done to address the implementation of those 
security measures?
    In your experience representing the global perspective, has 
TSA, from the United States, been an effective partners in 
these efforts?
    Mr. Marriott. Thank you.
    With respect to your first question about timely progress, 
I think it is fair to say that, in the security environment, 
there is no such thing as moving fast enough. The nature of the 
threat and the dynamic nature of the aviation industry are such 
that the environment is constantly changing. So, in an ideal 
world, aviation security standards, international standards, 
would be developed at the same pace.
    The fact is that international standards development is a 
consensus-building exercise, and it is necessarily so, so that 
we can achieve the broadest level of consistent, uniform 
implementation around the world to plug vulnerabilities in the 
system.
    Does it move quickly? It does move quickly. The amendments 
to Annex 17, to the international standards, will come into 
effect the 1st of July this year after a process taking 
approximately 2 years. But please bear in mind that that is a 
regulatory process, not unlike national regulatory processes, 
that creates new international law.
    With respect to addressing implementation, I think a key 
ingredient there is also around international cooperation and 
the provision of assistance to states in need--states in need 
that do not have the necessary resources and capabilities to 
achieve the expectations placed on them by the international 
community. ICAO helps lead that international effort by 
coordinating the assistance provided by a number of states and 
by acting on ICAO's own prerogative to help states improve 
their aviation security systems. So implementation is the key 
point there.
    With respect to the TSA's effectiveness internationally and 
in working with ICAO, I can say unequivocally that it is 
excellent--excellent relationship, excellent contribution that 
the TSA makes consistently in advancing policy discussion, in 
providing technical information and sharing information, 
providing experts, for that matter seconding personnel to ICAO 
to work with us on advancing the international program.
    In many, many ways, TSA is doing a great job.
    Ms. Jackson Lee. Let me thank you for that.
    I will close on this question, and let me ask it of all of 
our panelists. I consistently say that terrorism is surprise. 
It is an attack on weaknesses or vulnerabilities that maybe 
have been studied. It is also the acts of one lone person, at 
least in terms of the physical act; you may have a team behind 
you, but it can be done by one. There is a degree of creativity 
which keeps us ever on our toes, and difficult toes at that, 
because we have to put ourselves in the minds of those who 
truly want to do harm.
    Just recently, we had a perimeter attack in Moscow. We have 
hundreds upon hundreds upon hundreds of airports in the United 
States and around the world, so, starting with Mr. Cornelis, 
your thoughts on what the European Union is thinking about with 
respect to securing perimeters, what ideas you have. If Mr. Ron 
would then follow, and then Mr. Marriott.
    I thank the Chairman.
    Mr. Cornelis. In terms of perimeters, Ms. Jackson Lee, we 
have very strict rules as regards what we call the critical 
parts of the secure areas of airports, including access through 
the building but also the fence or the perimeter around an 
airport facility and entrances for vehicles and so on. We 
consider the area within to be a sterile area, and everything 
cannot go in unless it is fully screened and checked.
    Outside that area, we feel that the general rules of public 
security apply which also apply in other places where a lot of 
people gather, such as train stations. Our efforts, in terms of 
aviation security specifically, are focused on protecting 
aircraft and people traveling on aircraft. But, certainly, at 
National level in the European Union, our member-states have 
programs to protect also the landside areas and other areas of 
mass gathering.
    Ms. Jackson Lee. Mr. Ron.
    Mr. Cornelis. I am sorry, just to add, we cannot have the 
same methods there of screening that we have in a confined 
area, such as the gates to aircraft. We cannot imagine the same 
system on a grand scale in society.
    Mr. Ron. I think that the problem that we witnessed a few 
months ago when we learned about a stowaway passenger who got 
into the wheel well of a U.S. Air flight from North Carolina to 
Boston, from Charlotte, indicates to the weakness that we have 
not appropriately addressed until now. Most of our attention 
since 9/11 was focused on a passenger's bags and, later on, on 
cargo, and we paid relatively less attention to the issue of 
the airport security as a facility.
    In my view, it is very difficult, if not impossible, to 
distinguish between the two categories, because if we protect 
the aircraft by screening passengers and bags and cargo at such 
a high cost as we do and, at the same time, a 16-year-old boy 
can cross the perimeter and gain access to the same aircraft 
that we are protecting and hide in the wheel well, that is 
obviously an indication that there is something that we need to 
address.
    Now, as far as the technology is concerned, unlike the 
detection technology at the checkpoint or at baggage screening 
that is perhaps more limited, perimeter security technology is 
very developed. There is a wide variety of solutions, most of 
which were developed here in the United States by American 
companies, that they can be implemented based on a proper 
analysis of the needs and the conditions at the specific 
location. The perimeter challenge can be resolved, I believe, 
easier than the challenges that are presented to us by 
passengers and bags at this time.
    Ms. Jackson Lee. Thank you.
    Mr. Marriott.
    Mr. Marriott. Thank you.
    In response to the same question, I think the answer has 
three elements to it. The first is the importance of layers of 
security between the perimeter of an airport and the principal 
target of terrorists in aviation security, which, of course, is 
the aircraft. In the execution of layers of security, there is 
a high degree of importance of building in a sensible level of 
redundancy so as to recognize that no single layer of security 
is impenetrable. But there needs to be a sensible level of 
redundancy without creating extraordinary inefficiency, in 
order to provide that sort of second opportunity to detect a 
threat.
    The second element is the need for constant vigilance by 
and of the people in security-restricted areas of airports, a 
vigilance by them to constantly observe activity in a secure 
area of an airport and to challenge the presence of suspicious 
activity and to report accordingly to the appropriate 
authorities; and, of course, vigilance of persons in secure 
areas, recognizing that there is such a thing as an insider 
threat. As my colleagues have spoken of earlier, there are a 
number of means to address that, including background checks of 
workers and, importantly, a recognition internationally that 
screening of staff to a 100 percent level is the necessary 
objective.
    The third element is, in recognition of the fact that many 
of the security systems that aim to prevent penetration of the 
perimeter are passive systems, like fencing, and, in fact, the 
distance between a fence and the target, there is a need for 
constant testing of airport security systems, to ensure that 
they are living up to the expectations of travelers and those 
who use airports.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. We have 
gotten an enormous amount of information at this hearing. Thank 
you.
    Mr. Rogers. Thank you.
    The Chairman now recognizes Mr. Cravaack for his questions.
    Mr. Cravaack. Thank you, Mr. Chairman.
    First off, I would like to thank all of you here today on 
our international cooperation for a joint endeavor of making 
sure we combat terrorism. So thank you very much for that.
    Mr. Ron, your background intrigues me. You have been a 
paratrooper for the IDF; you were one of the original sky 
marshals with El Al. We have just had the fortune, the Members 
here, to--we just came back from Israel, and we were able to go 
to the Tel Aviv airport and take a look at how they conduct 
security.
    One of the things that I would like to take a look at--you 
have also been the director of security for the Tel Aviv 
airport, and you have also come to Boston Logan and done 
security there, as well.
    My question is: You have used a behavior pattern 
recognition program. I would like to see how successful that 
was. Could it be implemented to other airports that you have 
seen here in the United States, as well?
    Mr. Ron. Well, first of all, thank you very much for your 
kind remarks.
    As far as the behavior pattern recognition program is 
concerned, the behavior pattern recognition program is very 
much based on the idea that, by observing human behavior, you 
can get indicators that may help you identify people with 
malicious intentions. But this is just one piece of the puzzle, 
and we need to understand that it is not a stand-alone program 
that can provide a silver bullet to all or most of our 
problems. It is just one piece.
    If we shift our attention from items to people--and that is 
very much a part of what I was indicating to in my earlier 
comments--then, in order to avoid the trap of the 
discriminating or using discrimination factors that are not 
acceptable in our democratic society, we need to stick to 
behavioral aspects or to the way people behave.
    That behavior is not only in real-time observation but 
also, if we have access to a person's behavior in the past, 
that could become very relevant to us in order to understand 
the level of risk that that passenger represents.
    So, for example, if we learned that somebody's home address 
is an address that is recognized by our intelligence database 
as an address that is connected to a person who is involved in 
terrorism, I would say that that is a piece of information that 
I would pay attention to. If I learned, as we said earlier, 
that a parcel is coming out of Yemen with printers to the 
United States, that is a behavioral aspect, and it has nothing 
to do with any form of discrimination. That is the idea.
    Behavior pattern recognition is a program that was 
developed for use at the airport, which is, as I mentioned 
earlier, one layer out of a few. We started it at Logan Airport 
with the Massachusetts State Police. It became very successful. 
After a while, TSA, watching what we were doing at Logan 
Airport, has developed the SPOT program and the Behavior 
Detection Officers program, which is considered to be a great 
success by TSA and, I believe, is substantially contributing to 
a layer that was not there before and is a very important 
layer.
    I still suggest that we can take that a couple of steps 
forward by adopting the idea that, at the airport, it is not 
enough just to look for bad items and it is not enough just to 
look for suspicious behavior by observation, but, at some 
point, for the very few--and when I say a very few, I mean less 
than 1 percent of the passengers, hopefully--we need to be able 
to talk to these people at the airport and perhaps use 
interview techniques to understand a little further what their 
intentions are.
    These techniques have proven to be very powerful in the 
past and have detected and stopped attacks in the past, unlike 
a one-size-fits-all technological approach, which is based on 
the idea that we can detect every threat at the checkpoint.
    Mr. Cravaack. Thank you, sir.
    Now, just moving that a little bit forward, can you see 
implementing a program such as that at Midway Airport in 
Chicago?
    Mr. Ron. I think that the program can be implemented, 
actually, everywhere. Obviously, it depends on properly 
configuring the program, or reconfiguring the program, to meet 
the local needs. There has to be a basic benchmark for the 
program and a framework for the program so that this will not 
go beyond what we intend it to go. But, at the same time, I 
think that, in every airport--and not only airport, but any 
other security-controlled facility, the program can be 
implemented.
    Mr. Cravaack. Thank you, sir.
    With the Chairman's indulgence, if I could just have 
another question, sir?
    Mr. Rogers. Yes, sir.
    Mr. Cravaack. The other questions I had, Mr. Marriott--
thank you very much, Mr. Ron, for your testimony.
    Mr. Marriott, you hit the nail on the head. After being a 
pilot and have done numerous preflights and seeing the amount 
of people that are crawling in and around the aircraft, I have 
always seen this as a weak link on who is there, how do we know 
that they are supposed to be there. We all know that badges can 
be faked and that uniforms can be replicated.
    But what you said, constant vigilance is the key. It is 
empowering people on the flight line to challenge people, like, 
``Hey, haven't seen you around here. Where are you from?'' 
``Hey, do you mind if I--I don't see your ID. Can I check that 
out?'' One of the things I learned in Tel Aviv was the layers 
of security is the key. So you hit the nail right on the head 
on that.
    So I just wanted to thank you for that testimony, and I 
think that is the way to go, layering for security, because 
there is no one bullet that is going to keep us safe. So, thank 
you very much for that testimony.
    Mr. Chairman, I yield back.
    Mr. Rogers. Thank you very much.
    I have just a couple of quick questions for Mr. Cornelis.
    What processes do you have in place to identify high-risk 
cargo on passenger aircraft and on cargo aircraft?
    Mr. Cornelis. Mr. Chairman, we are currently working on new 
rules to cover the threat of high-risk cargo inbound into the 
European Union. This is rather new for us to, first of all, 
work on inbound threat and on a risk-based approach to 
determine which cargo should receive greater attention.
    So we are looking at criteria to determine what is high-
risk cargo and then procedures, what should be done with it, 
special screening requirements, additional----
    Mr. Rogers. So that is still in the works? You haven't 
decided yet what----
    Mr. Cornelis. That is well-advanced, and we do hope to be 
able to bring forward this new rulemaking before the summer.
    Mr. Rogers. Excellent.
    Well, speaking of rulemaking, I understand you all have 
recently overturned your restrictions on liquids, aerosols, and 
gels being carried on the planes. What was the logic for 
overturning that? Do all your member-states agree with that?
    Mr. Cornelis. Well, actually, we haven't overturned our 
rules. What we have in the European Union are very strict 
controls on liquids, aerosols, and gels. Many countries in the 
world don't have such restrictions at all. We do have very 
strict controls.
    But we are working toward a 2013 deadline to screen all 
liquids, aerosols, and gels, rather than banning them, onto 
flights, so that passengers can take, again, liquids onto the 
flights. That is a very strong demand from passengers and from 
our parliamentarians.
    What we are doing now this year is a first small step to 
prepare this process. We will allow duty-free purchases, 
properly packaged in a bag, subject to supply-chain controls, 
after screening, onto a transfer aircraft for people who have 
bought these items in third countries. So it is a small first 
step, subject to screening, that we are taking now.
    Mr. Rogers. Thank you.
    That is all I have. Does the Ranking Member have any 
additional questions?
    Ms. Jackson Lee. No. Thank you for your courtesies.
    I thank all the witnesses for what I think, from both 
panels, have been a very, very important presentation today at 
our hearing.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. Thank you.
    Also, I want to restate how kind it was for you all to 
travel so far and put so much time into this testimony and 
answering the questions.
    I would ask that if any Members of the committee who 
couldn't be here have any follow-up questions, if you would 
submit a response to those in writing, I would appreciate that.
    With that, this hearing is adjourned.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
